<html>
<title> - FIRST RESPONDER INTEROPERABILITY: CAN YOU HEAR ME NOW?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





         FIRST RESPONDER INTEROPERABILITY: CAN YOU HEAR ME NOW?

=======================================================================

                             JOINT HEARINGS

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                and the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2003

                               __________

                           Serial No. 108-139

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-427                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
              Grace Washbourne, Professional Staff Member
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                        Robert A. Briggs, Clerk
           David McMillen, Minority Professional Staff Member
   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 DIANE E. WATSON, California
TIM MURPHY, Pennsylvania             STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
                 Scott Klein, Professional Staff Member
                      Ursula Wojciechowski, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:.................................................
    November 6, 2003, panel one..................................     1
    November 6, 2003, panel two..................................   205
Statement of:
    Evans, Karen S., Administrator of E-Government and 
      Information Technology, U.S. Office of Management and 
      Budget; Dr. David Boyd, Program Manager, SAFECOM, Wireless 
      Public Safety Interoperable Communications Program, U.S. 
      Department of Homeland Security; John Morgan, Assistant 
      Director, Science and Technology, National Institute of 
      Justice, Advanced Generation Interoperability Law 
      Enforcement [AGILE]; John Muleta, Chief, Wireless Bureau, 
      Federal Communications Commission; and Edmond Thomas, 
      Chief, Office of Engineering and Technology, Federal 
      Communications Commission..................................   213
    Jenkins, William O., Jr., Director, Homeland Security and 
      Justice Issues, U.S. General Accounting Office; Marilyn 
      Ward, chairman, National Public Safety Telecommunications 
      Council [NPSTC], manager, Public Safety Communications 
      Division, Orange County, FL; Aldona Valicenti, National 
      Association of State Chief Information Officers, NASCIO 
      member to PSWN/SAFECOM, chief information officer, State of 
      Kentucky; Marilyn Praisner, councilwoman, Montgomery 
      County, MD, Chair, Telecommunity, Chair, Technology 
      Committee, National Association of Counties, PSWN Executive 
      Board, CapWIN Executive Board; and George Ake, program 
      director, Capital Wireless Integrated Network [CapWIN].....    32
Letters, statements, etc., submitted for the record by:
    Ake, George, program director, Capital Wireless Integrated 
      Network [CapWIN], prepared statement of....................    92
    Boyd, Dr. David, Program Manager, SAFECOM, Wireless Public 
      Safety Interoperable Communications Program, U.S. 
      Department of Homeland Security, prepared statement of.....   222
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statements of................ 25, 279
    Evans, Karen S., Administrator of E-Government and 
      Information Technology, U.S. Office of Management and 
      Budget, prepared statement of..............................   216
    Harman, Hon. Jane, a Representative in Congress from the 
      State of California, prepared statements of.............. 11, 296
    Jenkins, William O., Jr., Director, Homeland Security and 
      Justice Issues, U.S. General Accounting Office, prepared 
      statement of...............................................    35
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statements of............ 30, 295
    Morgan, John, Assistant Director, Science and Technology, 
      National Institute of Justice, Advanced Generation 
      Interoperability Law Enforcement [AGILE], prepared 
      statement of...............................................   234
    Muleta, John, Chief, Wireless Bureau, Federal Communications 
      Commission, prepared statement of..........................   249
    Praisner, Marilyn, councilwoman, Montgomery County, MD, 
      Chair, Telecommunity, Chair, Technology Committee, National 
      Association of Counties, PSWN Executive Board, CapWIN 
      Executive Board, prepared statement of.....................    73
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida:
        Prepared statements of.................................. 5, 209
        Prepared statement of Vincent Stile......................   113
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statements of......... 22, 206
    Valicenti, Aldona, National Association of State Chief 
      Information Officers, NASCIO member to PSWN/SAFECOM, chief 
      information officer, State of Kentucky, prepared statement 
      of.........................................................    64
    Ward, Marilyn, chairman, National Public Safety 
      Telecommunications Council [NPSTC], manager, Public Safety 
      Communications Division, Orange County, FL, prepared 
      statement of...............................................    56

 
         FIRST RESPONDER INTEROPERABILITY: CAN YOU HEAR ME NOW?

                              ----------                              


                       THURSDAY, NOVEMBER 6, 2003

        House of Representatives, Subcommittee on National 
            Security, Emerging Threats and International 
            Relations, joint with the Subcommittee on 
            Technology, Information Policy, 
            Intergovernmental Relations and the Census, 
            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:05 a.m., 
in room 2154, Rayburn House Office Building, Hon. Adam H. 
Putnam (chairman of the Subcommittee on Technology, Information 
Policy, Intergovernmental Relations and the Census) presiding.
    Present: Representatives Putnam, Duncan, Janklow, Murphy, 
Schrock, Shays, Clay, Maloney, Ruppersberger, Sanchez, and 
Tierney.
    Also present: Representatives Harman and Weldon.
    Staff present: Lawrence Halloran, staff director and 
counsel; and Robert A. Briggs, clerk; Subcommittee on National 
Security, Emerging Threats and International Relations. Bob 
Dix, staff director; and Ursula Wojciechowski, clerk; 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census. Grace Washbourne, 
professional staff member; John Hambel, counsel; David 
McMillen, minority professional staff member; Jean Gosa, 
minority assistant clerk; and Casey Welch and Jamie Harper, 
minority legislative assistants, Committee on Government 
Reform.
    Mr. Putnam. This joint hearing of the Subcommittee on 
Technology, Information Policy, Intergovernmental Relations and 
the Census will come to order. And we are tickled to death to 
be in a joint hearing today with the Subcommittee on National 
Security, Emerging Threats and International Relations. This 
hearing came together at Mr. Shays' invitation. He has been a 
leader on this issue. I was honored to serve as his vice chair 
in my freshman term for 2 years with his National Security 
Subcommittee and delighted that he invited the Subcommittee on 
Technology to join him in this very important topic.
    Good morning and welcome to today's hearing assessing the 
progress being made to ensure interoperability of our Nation's 
public safety communications systems. We have divided today's 
activities into two parts for reasons that we will get into in 
the second part. Our first hearing will focus on our local and 
State officials who have the responsibility of managing public 
safety communications. Our second hearing will be the Federal 
perspective and focus on the efforts being made across the 
Federal Government to ensure interoperability. More 
specifically, we will closely examine the SAFECOM E-Government 
initiative and our radio spectrum challenges.
    Before we begin, I understand that Congressman Weldon of 
Pennsylvania and Congresswoman Harman of California have both 
asked to join us today on the panel for this hearing. By 
unanimous consent, I would ask the subcommittees allow their 
participation. Seeing no objection, we welcome Mr. Weldon and 
Ms. Harman to this hearing.
    On behalf of the subcommittee that I have the privilege to 
chair, let me continue to extend my appreciation to Mr. Shays 
and his subcommittee for their leadership in this very 
important issue.
    In a moment I will yield to Mr. Shays for his opening 
remarks and thoughts from his committee's perspective. I did 
want to take a moment, though, to convey a few thoughts from 
the Subcommittee on Technology's perspective that we have been 
reviewing this year.
    The Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census has held a number of 
comprehensive oversight hearings this year on our Federal E-
Government initiatives, from E-Payroll and E-Recruitment to E-
Records and Federal IT Consolidation. We have also held E-
Government oversight hearings to address those specific 
initiatives whose success is dependent upon coordination and 
cooperation with State and local officials such as we have here 
on panel one.
    During these hearings, we have uncovered billions of 
dollars in annual savings that can be achieved from E-
Government and focused on the vast opportunities we have to 
provide more efficient services to our citizens. I am pleased 
to report that despite some funding challenges, most of the E-
Government agenda is on target and making progress each day.
    Conversely, today's hearing on SAFECOM raises some anxiety 
and concern in terms of progress and our ability to succeed. 
Let us be frank: the undeniable need to succeed with this 
initiative makes SAFECOM perhaps the most important of all 
these initiatives occurring across the Federal Government. 
SAFECOM is not just about improving Government, but SAFECOM is 
about the mission and role of our Federal Government.
    My concern is grounded by the fact that while we have more 
than enough folks providing suggestions on how to spend our 
Homeland Security grant money, no one seems particularly 
interested in taking responsibility for the performance and 
results associated with that spending, nor will anyone be held 
responsible if we have another tragedy, this time, perhaps, a 
tragedy with expensive, new, incompatible, non-working 
equipment instead of the old, incompatible, non-working 
equipment.
    Without stakeholder agreement and results, I think the only 
thing ``SAFE'' about SAFECOM is that we can safely predict the 
mother of all finger pointing. That is why this hearing is so 
crucial. We must determine the role of each stakeholder and 
create an atmosphere of accountability and responsibility for 
results. We cannot achieve a half-a-loaf on this initiative; we 
cannot claim small wins; we must succeed with SAFECOM in its 
entirety.
    So what is the current atmosphere for preparation and 
prioritizing our spending for first responders? First, our 
Homeland Security grants have very few strings attached that 
require interoperability of equipment across regions and States 
or with the Federal Government. Our SAFECOM managers have no 
authority to require the FCC to reorganize or designate 
additional bandwidth for emergency needs. Therefore, we may 
well be spending billions of dollars on new equipment that will 
then not work properly once the power switch is flipped on. We 
must not forget our State and local elected officials who are 
doing their best to secure any money they can for their 
jurisdictions, notwithstanding a lack of bandwidth or an 
inability to become interoperable with adjacent jurisdictions.
    We must also not forget Congress' role in both creating and 
solving this chaos. Given congressional oversight 
responsibility, Congress legislatively joins the FCC in 
allocating the limited and fragmented radio spectrum between 
commercial communication entities, television broadcast 
companies, and our State and local governments. And as we 
appropriate funds, every Member of Congress is seeking his or 
her fair share of grants for their district or State, 
regardless of communications standards or regulations created 
inside the Beltway by the good people managing the SAFECOM 
initiative.
    In addition to the challenges and pressures facing each 
stakeholder to perform, the SAFECOM initiative has the added 
pressure of having to produce concrete results with little time 
to coordinate standards. As tax money builds up in accounts 
intended to purchase equipment once standards and frequency 
questions are resolved, enormous pressure builds to push that 
cash out the door as quickly as possible and deal with the 
details later.
    Unfortunately, the devil is in those details when it comes 
to interoperability. Adding to that challenge is the 
interagency role SAFECOM plays to develop interoperability 
standards and integrate our own Federal agencies. SAFECOM's 
challenges are enormous.
    From the FCC perspective, we will no doubt hear today of 
the details related to separate frequency bands used by first 
responders and how they cannot be bridged by systems equipment. 
We will also hear the particulars between the 700 megahertz 
band versus the 800 megahertz band versus the 50 megahertz 
band. My interest is focused on the process and a time line in 
which the FCC will make decisions on spectrum allocation or 
reallocation so that all stakeholders, including vendors, will 
be ready to coordinate interoperable solutions. It is clear 
that we cannot move forward or expect results without some 
decisions being made by those in positions of authority at the 
FCC and OMB. If not, we will have to solve these issues here on 
Capitol Hill, which is not the preferred solution.
    I am pleased we have nearly every stakeholder group 
represented here today to discuss their challenges, their 
roles, their responsibilities, and even what business-as-usual 
sacrifices they plan to make in order to generate real results. 
While I am not certain we will have all the answers today, I am 
confident that we will have an opportunity to make progress 
with our E-Gov leadership and FCC leadership testifying side by 
side before Congress for the first time ever on this issue.
    Before yielding to Chairman Shays, I would also like to 
extend a special welcome to Marilyn Ward, who happens to be the 
manager of public safety communications for Orange County, FL. 
We have a bit more experience in Florida than we would like 
responding to emergencies, but we have learned a lot that I 
believe will be useful toward improving our Nation's first 
responder communications. Ms. Ward's performance and know-how 
have, in fact, earned her the chairmanship of the National 
Public Safety Telecommunications Council, who she represents 
here today.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.001
    
    [GRAPHIC] [TIFF OMITTED] T3427.002
    
    [GRAPHIC] [TIFF OMITTED] T3427.003
    
    Mr. Putnam. With that, I will take this opportunity to 
yield to the ranking member of my subcommittee, Mr. Clay, 
before returning to Chairman Shays.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. And thank you and 
Chairman Shays for calling the meeting. At this time I would 
like to yield to the ranking member of the Intelligence 
Committee, Representative Jane Harman. Thank you.
    Ms. Harman. Well, I thank you for yielding, Mr. Clay, and I 
thank the chairmen of these two subcommittees for letting me 
crash the party; I really appreciate it. Chairman Shays and I 
have had a brother-sister act going for years on national 
security and homeland security issues, and Chairman Putnam, I 
am very grateful that you would let me come today, and to your 
ranking member, I am very grateful that he would yield me some 
time.
    Mr. Chairmen, the deaths of 121 firefighters on September 
11, 2001 might have been prevented if their colleagues in the 
NYPD were able to warn them in time that the World Trade Center 
towers were about to collapse. The problem was the lack of 
interoperable communications.
    Since September 11, I have maintained a virtual total focus 
on two issues that I think are the key issues we need to fix. 
One is information sharing, also known as connecting the dots, 
and the other is interoperable communications. We have made 
real progress on information sharing over the past 2 years in a 
variety of ways, but we are essentially nowhere, repeat, 
nowhere, on interoperability.
    As we sit here today, thousands of California firefighters 
in my home State are in the end stages of battling the worst 
wildfires, in fact, the worst natural disaster my State has 
ever experienced. The fires have already taken 22 lives, 
including 1 firefighter, destroyed 3,500 homes, and consumed 
more than 750,000 acres of brush and timber. More than 80,000 
citizens had to be evacuated from their homes.
    Firefighters from all over California and neighboring 
Arizona coordinated their actions in real time to fight a 
menace that rapidly spread, shifted direction, and put both 
citizens' and firefighters' lives in mortal danger.
    And yet, Los Angeles County Fire Chief Mike Freeman informs 
me his firefighters were often unable to coordinate efforts 
with firefighters from neighboring jurisdictions not because 
they didn't have the finest men and women on the job, but 
because they could not communicate with each other over their 
radios. ``It is the same problems we always have communicating 
on our radios with other agencies,'' he said. ``Different 
counties' radios are often on completely different, 
incompatible frequencies, hindering our efforts to protect 
lives and property.''
    LA County firefighters adapted by handing out some of their 
own radios to other departments, but this did not always work. 
In one instance, in Claremont, CA, a district represented by 
the chairman of our Rules Committee, Assistant Chief Michael 
Morgan's firefighters actually had to drive around and track 
down firefighters from a neighboring county to give them 
crucial information because they could not communicate with 
them by radio. I mean, this sounds like prehistoric times, 
using physical runners, at least they had vehicles, to 
communicate information because technology failed. This meant 
that in some cases coordination was impossible because they 
were separated by dangerous fire areas. This is unacceptable 
and completely unnecessary. It is a sad day when the talents 
and skills of brave men and women are undermined by a lack of 
technology.
    Today's witnesses will, I am sure, tell us that the key 
factors for interoperable communications are coordination, 
equipment, training, standards, and radio spectrum. It is 
spectrum that is the Achilles heel, and if Congress can't make 
good on its promise to provide the necessary spectrum for first 
responders, the other efforts, in my view, will be wasted, 
because radios need to be on the same frequency in order to 
talk to each other. And that is why Congressman Curt Weldon and 
I introduced H.R. 1425, the Homeland Emergency Respond 
Operations Act [HERO], earlier this year.
    Mr. Chairman, the 1997 Balanced Budget Act required the FCC 
to reallocate radio spectrum for public safety from a band that 
is scheduled to be vacated no later than December 31, 2006. 
Unfortunately, the same law postpones transferring that band 
indefinitely if more than 15 percent of households are unable 
to receive digital television.
    The practical effect of this unfortunate loophole is that 
firefighters, police, and emergency personnel can't even begin 
planning for next generation interoperable communication 
systems because they cannot be sure that spectrum will be 
available.
    I see all the witnesses nodding. I know you agree with me.
    The HERO Act would close this loophole and ensure the 
availability of the spectrum. This act also lays the foundation 
for a next generation of voice and data communications systems 
that can enable first responders to take advantage of the 
communications revolution that is already sweeping through the 
private sector and the military.
    For example, in Iraq and Afghanistan, U.S. forces 
capitalized on stunning advances in information technology. The 
military's integrated, cutting-edge communication systems 
rapidly coordinated and shared data, undoubtedly saving 
American lives. Likewise, in the private sector, we see a wide 
variety of innovative products hitting the markets allowing 
consumers to increasingly receive all the customized voice and 
data services they want wherever they are.
    The dividends of a similar revolution in public safety and 
homeland security could be directly measured in lives saved. 
With region-wide voice and data systems, firefighters in 
California could have had real-time tracking maps to show 
progress of the fires, location of other firefighters, critical 
infrastructure, blueprint layouts of chemical plants or oil 
refineries, and in many cases locations of citizens who needed 
to be rescued.
    In conclusion, Mr. Chairman, the HERO Act is endorsed by 
the National Association of Counties, you are going to hear 
about it in just a moment; the International Association of 
Fire Chiefs; the International Association of Chiefs of Police; 
the Association of Public Safety Communications Officers; the 
National League of Cities; the National Volunteer Fire Council; 
the International Union of Police Associations, all of whose 
letters of endorsement I am attaching to my statement today.
    By showing leadership now and moving forward with 
interoperability legislation like HERO, we can make vital and 
urgent progress in better protecting our citizens. I hope your 
subcommittees will join us. To adjourn with no action on H.R. 
1425 is to leave thousands, perhaps millions, of first 
responders vulnerable.
    I thank all of you for the time; I really appreciate it. I 
urge you to review this legislation; it is endorsed by every 
international public safety group on the planet Earth, and I 
can tell you from many conversations with first responders, it 
would have made a real difference in the California fires and 
it will surely make a real difference in protecting Americans 
at home. If we have this technology for our military abroad, we 
deserve to have this technology for our first responders, who 
are really our frontier fighters at home. Thank you very much.
    [The prepared statement of Hon. Jane Harman follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.004
    
    [GRAPHIC] [TIFF OMITTED] T3427.005
    
    [GRAPHIC] [TIFF OMITTED] T3427.006
    
    [GRAPHIC] [TIFF OMITTED] T3427.007
    
    [GRAPHIC] [TIFF OMITTED] T3427.008
    
    [GRAPHIC] [TIFF OMITTED] T3427.009
    
    [GRAPHIC] [TIFF OMITTED] T3427.010
    
    [GRAPHIC] [TIFF OMITTED] T3427.011
    
    [GRAPHIC] [TIFF OMITTED] T3427.012
    
    Mr. Putnam. Thank you, Ms. Harman. We appreciate your 
insightful remarks. You have certainly been a leader on this 
and a number of other homeland and national security issues.
    At this time I would like to introduce the chairman of the 
subcommittee who was the driving force behind this hearing, 
Christopher ``Cassandra'' Shays, ``Cassandra'' in that he has 
been issuing warnings on a number of these issues for years. 
Prior to the events of September 11th, his subcommittee had 
held more hearings than anyone else in the Congress, on the 
threats from Al-Qaida and other terrorist organizations. Prior 
to the creation of the Department of Homeland Security, he and 
Ms. Harman held or were participants in a number of the early 
discussions about the need for creation of such a department. 
He has been just a tireless advocate for the issues related to 
spectrum and pushing these issues forward, and we are delighted 
that he invited us to participate with him.
    Mr. Shays.
    Mr. Shays. Thank you very much, Mr. Chairman, and I just 
want to thank you for holding this hearing. I want to thank the 
full committee staff as well, because this has been an effort 
of the full committee and both our subcommittees, Mr. Chairman; 
also to welcome Congresswoman Harman, who has been taking such 
a strong stand on so many of these issues, and I had asked my 
staff, as soon as she had read the bill, I hope to God we are 
on her bill. So I had them check. This will be a bill that I 
can't wait to see pass, and we are well aware of why it hasn't. 
We have lots of different interest groups that are, in my 
judgment, putting their interests before the national interest, 
and we are going to have to take them on.
    More than a year before September 11, 2001, the National 
Security Subcommittee heard testimony from first responders who 
had just participated in a tabletop exercise of emergency 
responses to a chemical attack. Among the first casualties in 
that scenario were internal and external communications by 
Federal, State, and local officials.
    On September 15th of this year, we observed a similar 
exercise with similar results. It is hard to imagine that we 
still have this problem. Fully 2 years after what many saw in 
September 11th as a wake up call from hell, too many first 
responders still can't hear the alarm. Despite significant 
expenditures and some progress, public safety and emergency 
response communications remain a high tech Tower of Babel 
splintered by different electromagnetic, political and fiscal 
languages.
    What stands in the way of first responder interoperability? 
Major impediments appear to be less a question of hardware or 
software than wetware, the human circuitry that must power 
enhanced connectivity. Linking more than 44,000 State and local 
agencies and over 100 Federal programs and offices for 
effective emergency response challenges entrenched cultures of 
intergovernmental mistrust. Interoperability threatens old ways 
of doing business, while pitting public use of limited radio 
frequency spectrum against new commercial wireless 
applications.
    Efforts like the Wireless Public Safety Interoperable 
Communications Program, called SAFECOM, in the Department of 
Homeland Security, referred to as DHS, face daunting near-and 
long-term obstacles: old and incompatible equipment not yet due 
to be replaced; misaligned planning and funding cycles; and 
narrow, fragmented public safety spectrum bands crowded between 
bursting commercial uses. In Connecticut's 4th District, which 
I represent, interference on public safety bands is a serious 
and growing problem.
    Central to the apparent intractability of all these issues 
is the lack of technological and performance standards for 
interoperability. Unless State, local, and Federal public 
safety and emergency response agencies know exactly when, how, 
with whom, and on what frequencies they are supposed to be able 
to communicate, there is little chance randomly implemented, 
vendor driven technical upgrades will produce much more than 
accidental interoperability.
    Real time communication capability in the face of the 
terrorist threat is a national security imperative. When the 
next attack comes, lives will be lost as a result of the 
technical gaps, jurisdictional stovepipes, and jumbled spectrum 
allocations still impeding effective public safety voice 
communication and data sharing, as Ms. Harman so eloquently 
pointed out. We need to know how and when SAFECOM and other 
Federal efforts will channel the current technological and 
political cacophony into the seamless network that will carry 
our most potent weapons against terror: accurate, timely 
information.
    I want to thank Technology Subcommittee Chairman Adam 
Putnam again, and his staff again, for convening this joint 
hearing with us today. It is a small but fitting example of 
breaching jurisdictional barriers in the cause of greater 
interoperability.
    We thank all our witnesses for their time and for the 
expertise they bring to this important discussion, and we look 
forward to the second hearing we will be having at 11:30 with 
government officials.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.013
    
    [GRAPHIC] [TIFF OMITTED] T3427.014
    
    Mr. Putnam. Thank you, Mr. Chairman.
    And the gentleman from Missouri, the ranking member of this 
subcommittee, graciously yielded his time to Ms. Harman, and so 
we will now recognize him for his opening statement.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, and thanks for calling 
the hearing.
    If it were not so dangerous to our public safety, I would 
find it somewhat amusing that there has been so much talk about 
getting first responders to talk to one another and so little 
change. We are not much better off than we were 10 years ago. 
In fact, we do not even have a coherent plan for where we want 
to go.
    Understanding the problem is not too difficult. At the 
Federal level there are too many cooks stirring the soup, and 
none of them having interest of the first responders as a 
priority. At the local level we find the competition between 
police and fire departments for control in communities who are 
loathe to share revenues with the community next door.
    The councilwoman from Maryland has an excellent idea for 
funding much of the cost of the new equipment for the nearly 
40,000 jurisdictions throughout the United States: use the 
revenue from the spectrum auction. Unfortunately, that would 
require the FCC to change its tune. As we learned from her 
testimony, the FCC seems to be a part of the problem and not 
part of the solution.
    Several of our witnesses will testify to the problems 
created by the lack of sufficient bandwidth for public safety 
and the interference problems caused by commercial traffic on 
adjacent bands. Again, these problems seem to point to the FCC 
for solutions, but the witnesses, instead, point to the 
possibility that planned future actions by the FCC will make 
matters worse, not better.
    What is lacking the process is leadership. The SAFECOM 
project was designed to provide that leadership, but it too has 
a checkered past. It started out at the Department of Treasury 
and then was transferred to the Department of Homeland 
Security. As near as I can tell, the Department of Homeland 
Security is struggling to find its own direction. That is not a 
very good prescription for leadership.
    This hearing will highlight the problems we face in making 
our system of first responders better capable of handling both 
day-to-day emergencies and disasters. Many of the problems are 
the same, whether it be closing the Woodrow Wilson Bridge 
because of a suicide attempt or responding to Hurricane Isabel. 
It is my hope that this hearing will spur greater commitment in 
the administration for solving some of these problems.
    Again, thank you, Mr. Chairman, for calling this hearing, 
and I look forward to the testimony of the witnesses.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.015
    
    [GRAPHIC] [TIFF OMITTED] T3427.016
    
    Mr. Putnam. Thank you, Mr. Clay.
    I want to recognize the members of the subcommittees who 
have joined us: Mr. Janklow, Ms. Sanchez, Mrs. Maloney, Mr. 
Ruppersberger.
    At this time I will recognize Governor Janklow for his 
opening statement. You are recognized.
    Mr. Janklow. Thank you very much.
    You know, I really appreciate having this hearing today, 
and the witnesses, as I have seen the list, that are coming 
before the committee. There can't be any more important public 
safety issue than the ability to communicate when there is a 
crisis that starts. We in this country have the most Byzantine 
methods of communication that anybody can imagine. In my State, 
which is a State of only 750,000 people, but a landmass that is 
40 percent of the size of France or Great Britain, we have with 
public safety, with respect to police, fire, ambulance, 
sheriffs, State highway patrol, various public safety agencies, 
we have high band and we have low band, we have VHF and we had 
UHF, we had AM and we had FM; and we had them all operating 
independent of each other. When the town of Spencer, South 
Dakota, was destroyed in a tornado about 6 years ago, we 
actually had to fly into our State a special communications 
system and hand out portable radios so all of the first 
responders, second, third, and fourth responders that showed up 
could communicate with each other.
    As a result of that, frankly with some assistance from the 
Congress, and a lot of effort and money by the people of our 
State, we put together what I believe is the finest first 
responder communication system in existence; it is all on high 
band, it is 100 percent operative on VHF channels. We purchased 
and gave out free to every ambulance in the State, every 
hospital in the State, every nursing home in the State, every 
school bus in the State, every highway patrol vehicle, every 
sheriff vehicle, every police vehicle, every mayor's vehicle, 
all of the cabinet officials, the Governor's office, the State 
Department of Transportation and all their vehicles are now all 
on the same system that is linked together on a high band link 
system that works throughout the State. It is truly a model.
    And I don't say it to brag. What I say it is to show you 
where you can go from where you have been in a very short 
period of time if you can get over the parochial issues that 
exist, of everybody wants to be boss.
    Also in my State, we have 42 911 centers; 42 911 in a State 
with only 750,000 people. Folks just all feel that they all 
have to control their own 911 center, that they can't share one 
with anybody else. And to the extent you feel you can't share 
one with anybody else, you put yourself into a position where 
you jeopardize your citizens if there is something that is more 
severe than the average emergency that takes place.
    There can't be anything more timely, Mr. Chairman, than 
this hearing, and the vital issues that affect the people of 
this Nation when there is a crisis and a disaster. The time to 
fix it is now, not after the next terrorist attack, not after 
the next attack on this country, not after the next major 
tornado or series of fires or floods or explosions.
    Thank you very much.
    Mr. Putnam. Thank you very much, Mr. Janklow.
    We will recognize the gentlelady from California, Ms. 
Sanchez.
    Ms. Sanchez. Thank you. And I would like to commend 
Chairman Shays and Ranking Member Kucinich for calling this 
hearing today.
    Earlier this year I toured fire stations and police 
departments in my district, and each one of them highlighted to 
me the important need for communication systems that allow law 
enforcement, firefighters, and other first responders to talk 
to one another; and to this end the Los Angeles Fire 
Department, with minimal resources and funds, initiated an 
interoperability communications pilot program known as the Los 
Angeles Regional Tactical Communications System. We 
affectionately give it an acronym LARTCS. The system 
essentially enables them to speak directly to one another on 
one channel for both short-term and long-term incidents.
    The pilot program only serves a portion of the county, and 
contrast that with the fact that the Los Angeles County Fire 
Department provides services to 58 municipalities and spans a 
3,000 mile radius. This includes dense, urban, rural, and even 
remote suburban districts.
    The LARTCS has already proven to be a success, particularly 
recently with the southern California wildfires that we 
experienced, and according to the Los Angeles County Assistant 
Fire Chief, Eric Eckberg, the fires hit the region really hard, 
but it could have been a lot worse if the communication system 
was not in place. I commend the foresight and the dedication of 
the Los Angeles County Fire Department, and all of the 
participating agencies that include law enforcement, EMS, and 
other first responders, for establishing this pilot program. 
And I just want to emphasize the fact again that the system was 
put into place with minimal funding.
    This successful pilot program proves that Congress needs to 
do more to fund interoperability systems, whether it is through 
additional FEMA grants or cutting red tape, so that first 
responders of LA County and multiple counties throughout 
California and the Nation can talk to one another. We need to 
do more to protect our public servants as well as the general 
population; therefore, I look forward to the testimonies of the 
witnesses who can shed some light on this salient issue.
    And again I would like to thank the chairman and ranking 
member for holding this hearing today.
    Mr. Putnam. Thank you, Ms. Sanchez.
    The gentlewoman from New York, Mrs. Maloney.
    Mrs. Maloney. I truly want to thank you for having this 
hearing; I think it is tremendously important. And as one who 
went to ground zero on September 11, our command central was 
destroyed on September 11 and we created one at the police 
plaza. That night, when I walked in, I asked what I could do, 
and they said, our radios don't work, get us radios. And I 
called Mr. Young, chairman of Appropriations, former chairman 
of Defense Appropriations, and asked for radios, and he had 
them flown in the next day from the military. But the radios 
that our fire department had did not even work, and it was our 
greatest vulnerability, I would say, was the lack of 
interoperability of communication on September 11 and the lack 
of radios that worked, period. And it is clearly one of the 
saddest lessons that we learned during the terrorist attacks of 
September 11, was the importance of all emergency personnel to 
communicate with each other.
    I want to share what happened on that terrible day. The New 
York City Police Department had a helicopter in the air around 
the towers and could see the North Tower glowing red, and 
radioed their officers to warn them of a collapse, allowing 
most of the police officers to exit safely. Regrettably, at the 
same time, numerous firefighters who were in the building could 
not hear the announcement to leave because their radios were 
not compatible. The lack of this crucial information 
contributed to the death of hundreds of New York City's finest 
and bravest.
    Another well documented problem was that the radios simply 
did not work in the towers because of their height and because 
they lacked the needed repeaters.
    The problems of September 11 were not without precedent. In 
1993, when the World Trade Center wa the site of another 
terrorist attack, the fire department's radios did not work in 
the towers, and there was not interoperability between all 
emergency personnel. Thankfully, during that attack, these 
failures did not result in the loss of life of our emergency 
personnel, but failure to act on the lessons that were learned 
clearly led to deadly consequences on September 11th.
    In the 2 years since September 11th, there has been a lot 
of discussion regarding interoperability and efforts to have 
specific spectrum dedicated for public safety. But despite all 
of this discussion and billions of dollars spent on homeland 
security funding, including some grants for interoperable 
communications, there is still one simple truth that sadly 
exists in New York City: the radios that did not work on 
September 11th still do not work today.
    My sincere hope is that this hearing will shed further 
light on progress being made to further enhance 
interoperability of communication for our emergency personnel 
and to gain further information on what we have to do in New 
York to get this technology up and working for first responders 
to avoid another disaster. We must learn from history; we do 
not need any more examples as to why investing in this 
technology is so important, and the examples I gave really cite 
why, Mr. Chairman, the hearing that you are having today is 
tremendously important to the safety of our citizens.
    Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T3427.017

    Mr. Putnam. Thank you, Mrs. Maloney. You and your 
colleagues from New York have some very powerful lessons to 
share with us, some very tragic examples, unfortunately.
    The gentleman from Maryland, Mr. Ruppersberger.
    Mr. Ruppersberger. And I agree with you, Mr. Chairman. A 
lot of the Members sitting here have been very active in first 
responders. Mrs. Maloney, I know you have been there and 
representing New York, and I know that Chairman Shays has 
really taken a lot of interest. So this is very important to 
us, this hearing; it is important to our local communities and 
our country.
    Also, I want to acknowledge Jane Harman, who is the ranking 
member of Intelligence. I am on the Intelligence Committee. She 
is a fine leader and it shows how much she cares about her job 
to be here. She is not a member of this committee, but she is 
here today. You can belong everywhere, I guess. Was that a 
slip? I am trying to be nice.
    We all know this is an incredibly important subject matter. 
We can create all the plans and have all the grants, but if our 
local first responders are not able to communicate, we are not 
going to be able to do the job.
    This issue goes beyond just first responders needing 
compatible equipment. The Government also has the 
responsibility to set aside spectrum to allow that 
communication occur, and that is very relevant to today's 
discussion. If we decide to access commercial spectrum, will it 
be dedicated only during a crisis or all of the time? These are 
issues we have to look at. What licensing agreements are needed 
between State and local authorities? How do we protect 
communication from this disruption? Can others pick up, jam, or 
even send messages during a crisis? This can be an issue 
involving terrorism. These are things that we have to look at.
    We have two panels here today. I do want to take a point of 
personal privilege. Councilwoman Marilyn Praisner and I have 
worked with for at least the last 10 years in local government, 
both on the board of the Maryland Association of Counties, of 
which she is president, but also on the National Association of 
Counties. She has been very active and has worked very hard on 
this issue, and I am glad to see that you are here representing 
the State of Maryland, Montgomery County. Thank you, Mr. 
Chairman.
    Mr. Putnam. Thank you.
    We would also like to welcome to this hearing the gentleman 
from Pennsylvania, Mr. Murphy, and the gentleman from 
Tennessee, Mr. Duncan, both of whom have agreed to submit their 
statements for the record.
    Seeing no further statements, in keeping with the title of 
the Subcommittee on Technology, I remind you that today's 
hearing, and nearly all of our hearings, can be viewed live via 
Webcast on the committee's Web site, reform.house.gov under 
live committee broadcast link.
    At this time we will go to the testimony of our first 
panel. Before doing so, I would ask that panel one please stand 
and raise your right hands for the administration of the oath.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all five witnesses and 
those accompanying them responded in the affirmative. And we 
will begin with Dr. Jenkins. Dr. William Jenkins is the 
Director of Homeland Security and Justice Issues for the U.S. 
General Accounting Office. Dr. Jenkins has been with the GAO 
since 1979, having worked principally in areas of budget 
policy, defense, financial markets, and justice administration. 
He has also been an adjunct professor at American University 
for over a decade. Dr. Jenkins is a graduate of Rice and 
received his Ph.D. in public law from the University of 
Wisconsin at Madison.
    We welcome you for your testimony, and you are recognized 
for 5 minutes.
    Noting the size of the panel and the size of the interests 
shown by subcommittee members, we would ask that you adhere to 
our 5 minute rule, please.
    You are recognized.

   STATEMENTS OF WILLIAM O. JENKINS, JR., DIRECTOR, HOMELAND 
 SECURITY AND JUSTICE ISSUES, U.S. GENERAL ACCOUNTING OFFICE; 
        MARILYN WARD, CHAIRMAN, NATIONAL PUBLIC SAFETY 
  TELECOMMUNICATIONS COUNCIL [NPSTC], MANAGER, PUBLIC SAFETY 
 COMMUNICATIONS DIVISION, ORANGE COUNTY, FL; ALDONA VALICENTI, 
   NATIONAL ASSOCIATION OF STATE CHIEF INFORMATION OFFICERS, 
NASCIO MEMBER TO PSWN/SAFECOM, CHIEF INFORMATION OFFICER, STATE 
OF KENTUCKY; MARILYN PRAISNER, COUNCILWOMAN, MONTGOMERY COUNTY, 
MD, CHAIR, TELECOMMUNITY, CHAIR, TECHNOLOGY COMMITTEE, NATIONAL 
ASSOCIATION OF COUNTIES, PSWN EXECUTIVE BOARD, CAPWIN EXECUTIVE 
   BOARD; AND GEORGE AKE, PROGRAM DIRECTOR, CAPITAL WIRELESS 
                  INTEGRATED NETWORK [CAPWIN]

    Dr. Jenkins. Chairman Putnam, Chairman Shays, members of 
the subcommittee, I appreciate the opportunity today to discuss 
the critical issue of interoperable communications for first 
responders. The interoperability issues the Nation faces today 
did not arise overnight, and they will not be successfully 
resolved over night. This morning I wish to discuss three 
challenges that must be met if we are to successfully address 
the complex issue of establishing effective and reliable 
interoperable communications, and one major barrier to 
successfully meeting those three challenges.
    The first challenge is to clearly define the problem, an 
obvious but not easy task. It is important to recognize that 
interoperable communications is not an end in itself, but one 
means to a very important end: the ability to respond 
effectively to any event that requires the coordinated actions 
of first responders.
    Moreover, interoperable communications is but one component 
of an effective incident command planning and operation 
structure, one that uses different scenarios--a car accident, a 
natural disaster, a major terrorist attack--to identify who is 
in charge, who must be able to communicate what information, to 
whom, in what form, under what circumstances. For example, what 
are the similarities and differences in the interoperable 
communication capacities, protocols, and first responder 
participants associated with responding to seasonably predicted 
flooding or a terrorist attack that involves biological agents.
    Only after this analysis has been done is it possible to 
assess the most appropriate means of achieving effective, 
reliable interoperable communications. It is also important to 
recognize that interoperable communications is not a static 
issue, but one that must be periodically reassessed in light of 
technology changes and changing events for which first 
responders must be prepared.
    Once the problem has been defined, the second challenge is 
to develop national performance goals and technical standards 
that balance uniformity with the need for flexibility in 
adapting them to different State and regional needs and 
circumstances. Because the events for which first responders 
must be prepared varies across the Nation, there is no single 
silver bullet solution that will meet all needs Nation-wide.
    The Council on Foreign Relations' report on emergency 
responders and SAFECOM officials have noted that we currently 
have no national standards, guidance, or strategy for achieving 
effective, reliable interoperable communications for first 
responders. DOJ officials told us they are working with SAFECOM 
to develop a statement of requirements for interoperable 
communications by May 2004.
    The third challenge is defining the roles and 
responsibilities of Federal, State, and local governments in 
addressing the interoperability problem. This includes their 
role in defining the problem, implementing any national 
performance goals and standards, and assessing alternative 
needs in achieving those goals and standards.
    In October 2002, this full committee issued a report on the 
Nation's preparation for biological, chemical, or nuclear 
attack. Its first finding was that incompatible communication 
systems impede intergovernmental coordination efforts, and 
recommended that the Federal Government take a leadership role 
in resolving the problem.
    A variety of Federal agencies and programs have been and 
remain involved in defining the interoperability problem and 
identifying potential solutions. OMB has designated SAFECOM as 
the means of unifying Federal efforts to coordinate the work of 
Federal, State, local, and tribal governments to provide 
reliable interoperable communications. However, SAFECOM does 
not include all major Federal efforts in this area, and its 
relationship to other Federal agencies and programs such as the 
Justice Department's AGILE program, is still evolving.
    SAFECOM will also face complex issues in addressing public 
safety spectrum management and coordination. Responsibility for 
assigning spectrum is split between the Federal Communications 
Commission and the National Telecommunications and Information 
Agency in the Department of Commerce. In September 2002 we 
reported these two agencies did not share a clearly defined 
national spectrum strategy, and we recommended that they 
develop such a strategy and report the result to Congress. To 
date, they have not done so.
    State roles are also evolving, with several States such as 
Missouri and Washington establishing a foundation for State-
wide planning and multi-State cooperation through memoranda of 
understanding or similar agreements. Within States there is a 
growing recognition that effective emergency response, 
including effective interoperable communications, requires a 
regional approach.
    The barriers to achieving effective interoperable 
communications are generally well known. They include 
incompatible and aging communications equipment, limited and 
fragmented funding, limited and fragmented radio spectrum, 
limited equipment standards, and limited and fragmented 
planning and cooperation. Of these, perhaps the most 
fundamental is the lack of effective interdisciplinary and 
intergovernmental planning and cooperation.
    No one Federal first responder group, jurisdiction, or 
level of government can successfully fix the interoperability 
problems that face this Nation. Police and fire departments are 
often at war over how to run incident command centers. They 
also often use different terminology to describe the same 
thing. The absence of a common language in operating procedures 
can lead to communications problems even when participating 
first responders share common communications equipment and 
spectrum.
    Success will require the partnership, leadership, and 
collaboration of everyone involved. In the absence of that 
partnership and collaboration, we risk spending funds 
ineffectively and creating new problems in our attempt to 
resolve existing ones.
    That concludes my statement, Mr. Chairman. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
    [The prepared statement of Dr. Jenkins follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.018
    
    [GRAPHIC] [TIFF OMITTED] T3427.019
    
    [GRAPHIC] [TIFF OMITTED] T3427.020
    
    [GRAPHIC] [TIFF OMITTED] T3427.021
    
    [GRAPHIC] [TIFF OMITTED] T3427.022
    
    [GRAPHIC] [TIFF OMITTED] T3427.023
    
    [GRAPHIC] [TIFF OMITTED] T3427.024
    
    [GRAPHIC] [TIFF OMITTED] T3427.025
    
    [GRAPHIC] [TIFF OMITTED] T3427.026
    
    [GRAPHIC] [TIFF OMITTED] T3427.027
    
    [GRAPHIC] [TIFF OMITTED] T3427.028
    
    [GRAPHIC] [TIFF OMITTED] T3427.029
    
    [GRAPHIC] [TIFF OMITTED] T3427.030
    
    [GRAPHIC] [TIFF OMITTED] T3427.031
    
    [GRAPHIC] [TIFF OMITTED] T3427.032
    
    [GRAPHIC] [TIFF OMITTED] T3427.033
    
    [GRAPHIC] [TIFF OMITTED] T3427.034
    
    [GRAPHIC] [TIFF OMITTED] T3427.035
    
    [GRAPHIC] [TIFF OMITTED] T3427.036
    
    Mr. Putnam. Thank you very much.
    Our next witness is Marilyn Ward. Ms. Ward joins us today 
as chairman of the National Public Safety Telecommunications 
Council. She began her career in public safety more than 30 
years ago as a dispatcher for the Florida Highway Patrol. 
Twenty-seven years of her career were spent in Orlando, where 
she quickly rose to the position of Communications Division 
Commander. She currently is the manager of Public Safety 
Communications Division for Orange County, FL. In her current 
position, she chairs the Governor's Domestic Security Task 
Force Interoperability Committee and is a member of the SAFECOM 
Executive Committee.
    Welcome.
    Ms. Ward. Thank you very much for having me.
    I am here today to talk with you about the National Public 
Safety Telecommunications Council [NPSTC]. NPSTC is an 
organization of 13 public safety type organizations, and we 
have 5 liaisons. Some of the initiatives that we have been 
working on to improve interoperability have been being worked 
on by all of these groups, and the IAFC, International Fire 
Chiefs, told me to be sure and mention them, that they are in 
support of these comments.
    With over 44,000 public safety first responder 
organizations in the United States, it is crucial that we have 
a resource and an advocate for public safety 
telecommunications. That is the primary role of NPSTC. NPSTC is 
a federation of public safety associations that encourages and 
facilitates through a collective voice, the implementation of 
the Public Safety Wireless Advisory Committee and 700 Megahertz 
Public Safety National Coordination Committee recommendations.
    NPSTC also serves as a standing forum for the exchange of 
ideas and information regarding public safety 
telecommunications. NPSTC has initiatives ranging from spectrum 
allocation to formation of rules and technology. Recently, we 
were asked by the staff at the FCC to assume an ongoing role of 
the National Coordination Committee. This committee was an 
advisory committee for interoperability spectrum in the 700 
megahertz band. This role for NPSTC will ensure that as the 
interoperability channels are deployed, there will be a 
methodology to ensure interoperability and spectrum resources. 
It also continues to expand NPSTC's membership to include more 
manufacturers and ensure a forum for dialog between all levels 
of government.
    NPSTC also has numerous task forces that are working on 
several projects. We are working to clear the TV broadcasters 
from TV channels 60 to 69 so that public safety can move into 
this critically needed spectrum. We are also trying to work 
with the FCC to remove the interference on our existing 
spectrum in the 800 megahertz band. This is a critical public 
safety issue, as today we have responders whose radios will not 
talk when they are in certain areas of their communities 
because the cellular provider in that area shares frequencies.
    These items, plus the interoperability issues, are high on 
our agenda. In that 85 percent of all police departments 
nationwide have fewer than 25 sworn officers, it is clear that 
this issue is a difficult one to solve without your help. 
Today, radios purchased from different vendors cannot 
communicate. There is no mandatory standard for radios; 
however, a voluntary ANSI standard called Project 25 is 
available. We encourage your support to make this standard 
mandatory nationwide.
    In addition, the issue of who is in charge of radio 
spectrum and radio systems makes it very difficult to plan for 
multi-jurisdictional communications systems. Often referred to 
as the political factor of interoperability, this one requires 
that Congress place restrictions on Federal grant funds to 
require multi-jurisdictional interoperability and standard base 
solutions.
    In Florida, our Governor appointed a domestic security task 
force immediately after September 11. Recently, our region in 
central Florida, which is comprised of nine counties, applied 
for a Federal COPS and Interoperability grant for mutual aid 
channels region-wide. It was due to this DSTF system being in 
place that we were able to bring 100 people together, agree on 
a solution, get a 25 percent cash match, and complete the grant 
in a 2-week period. We did receive the grant, and we did so 
because we applied together. We will have a Project 25 standard 
and we are building a multi-jurisdictional solution.
    I tell you this to explain how critical it is for you to 
make interoperability standards and multi-jurisdictional 
systems mandatory in future grants. It can be done, but it 
requires funding and agreements to work together toward a 
regional type solution.
    So what can Congress do to improve public safety 
communications? I have a few suggestions: assist in assuring 
that the 700 megahertz bands are cleared as soon as possible; 
encourage the FCC to resolve the 800 megahertz interference 
issues; require that Federal grant funding ensure that users 
have to build to a public safety standard; allow grant funding 
to develop new technology standards; encourage a national 
center for interoperability source guide to all the different 
interoperability funding and research studies for locals to 
access on the Web; develop a standard set of frequencies and 
standards of use in a disaster area, and provide clear 
implementation guidelines; allow grant funding for 
communications technician and operator training. All of the 
plans in the world won't work unless people know how to use the 
technology.
    Also, as a member of the SAFECOM Executive Committee, I see 
this as an opportunity for SAFECOM to bring together all of the 
resources that have been out there in the Federal Government, 
and I would suggest that we support SAFECOM.
    Thank you for allowing me to speak to this body. The public 
safety community is depending on your leadership to help us 
solve this problem.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Ward follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.037
    
    [GRAPHIC] [TIFF OMITTED] T3427.038
    
    [GRAPHIC] [TIFF OMITTED] T3427.039
    
    [GRAPHIC] [TIFF OMITTED] T3427.040
    
    [GRAPHIC] [TIFF OMITTED] T3427.041
    
    Mr. Putnam. Thank you very much, Ms. Ward.
    I want to thank both of our witnesses for adhering to our 5 
minute limit.
    I welcome the gentleman from Massachusetts, Mr. Tierney, 
who has joined us as well.
    Our next witness is Aldona Valicenti. Ms. Valicenti is the 
chief information officer for the State of Kentucky, a position 
she has held since 1997. She is Kentucky's first CIO. She is 
here today representing the National Association of State Chief 
Information Officers, an organization for which she previously 
served as president. Ms. Valicenti also serves as 
representative of the Nation's State CIOs to the Public Safety 
Wireless Network Program and SAFECOM Initiative. Prior to 
becoming Kentucky's CIO, Ms. Valicenti spent 21 years in the 
private sector serving in IT leadership positions, including 
management positions at Amoco and Dow Corning.
    Welcome. You are recognized.
    Ms. Valicenti. Chairman Putnam and Chairman Shays and 
members of the committee, and Honorable Congresswoman Harman, 
thank you very much for this opportunity.
    Rather than reading the testimony which we have submitted, 
I would like to take this opportunity and really reiterate many 
of the points that you have already made, and maybe with a 
slightly different twist to them. In some cases I will try to 
give you examples from the States that will allow you to relate 
to some things that have worked and, frankly, some things that 
have not worked very well.
    But the whole issue of interoperability is, frankly, too 
late to plan for when you need it. The planning and the 
coordination needs to take ahead of time, and long before that.
    The issue of interoperability is one that has existed for 
many, many years from a public safety perspective. When you 
deal with criminal justice systems, it has always been part of 
the criminal justice system; how do we communicate better on 
the information that we have.
    So let me address some of the same points that you already 
have made and this committee has already made.
    Technology and standards. It is probably the single most 
important component. When we talk about technology and 
standards, they are not something that is nebulous, they are 
not something that is unreal, but they are things that we can 
relate to. Architecture, in fact, is a blueprint for how things 
interrelate, and maybe one of the best examples that I can give 
you on where standards in technology does work is the working 
of the Internet. If it wasn't for standards, we probably would 
not enjoy many of the benefits of the Internet. Standards are 
well known, people ride to those standards, and we have used 
them. I suggest to you that we have an opportunity to drive the 
same kind of architecture in standards in this whole arena, 
which will allow us to then, hopefully 1 day, sit here and say 
we have the interoperability issue solved.
    So functionality exists, and exists in many cases, but we 
have not been very strong in endorsing them. Project 25 is one 
of those initiatives that has really relied on driving 
standards, and that is certainly one of the areas that we could 
be much more proactive. So NASCIO supports really the use of 
flexible and open architecture, and encourages all public 
safety agencies to really purchase equipment where it is 
advertised that it supports a standard.
    I would like to point out two States who have done an 
excellent job: Michigan and Delaware. Both were one of the 
first States to implement a standards-based compliance systems. 
In Michigan, that is known as the Michigan Public Safety 
Communications System, now has more than 300 local State and 
Federal public safety agencies and 10,000 radios in the system. 
Delaware has done something similar in the 800 megahertz 
system. Again, two States who have taken a very proactive 
approach.
    We have already heard some discussion of spectrum 
allocation. Spectrum allocation is a huge issue. Public safety 
community really has access to very small portion of that 
spectrum and, as you have already heard, that has a great deal 
of interference. So really looking at a preplanning, again, of 
the spectrum is an issue. Many of the States have applied for 
the 700 megahertz, and I wrote the letter for Governor Patton 
to apply for the 700 megahertz, but, frankly, right now there 
is not much hope that we will have that over the near future. 
2006 is not that far away, and when we look at that date, there 
is little movement to really implementing that.
    NASCIO published a white paper on public safety wireless 
interoperability and again addresses the issue of the 700 
megahertz. But that is an issue that we, frankly, either need 
movement toward or much more discussion, that we cannot hold 
out hope for that. In that white paper, we also addressed many 
of the issues which today, as Congresswoman Harman suggested, 
are now parts of the HERO Act, and have had discussions over 
that.
    Let me address one other topic, because it is really a 
cultural topic, and maybe that is the one that is most 
difficult to address. Public safety agencies don't 
traditionally work well together, and preplanning is really not 
part of the culture. And this is where we have taken a dramatic 
approach, I think, in Kentucky. The general assembly passed a 
bill creating the Kentucky Wireless Interoperability Executive 
Committee, which brings together multiple agencies, State, 
local agencies together as a body to the advice of the CIO, and 
what we ought to do with further purchasing and implementing of 
systems.
    And the last item is one really of innovative funding. 
There is no single amount of money that will buy or deploy all 
the systems that we need. And this is one example where I think 
that, as Governor Janklow indicated, South Dakota has done an 
excellent job because they took multiple pools of funds and 
delivered a system that is ultimately very interoperable.
    Infrastructure requirements are great in two areas which, 
frankly, I have not yet heard discussed, but if you allow me 
just a couple of seconds. The ongoing support of the 
infrastructure. All of these radios have to be able to 
communicate with an infrastructure of existing cell towers or 
capabilities that are satellite communication capabilities. 
Most small communities do not have that; the State needs to 
provide that. And that is the huge issue for many, many of the 
States.
    And last, but by no means least, is really the requirements 
of the role of the CIO. The CIO in many States, as I do in 
Kentucky, plays a critical role in bringing together local, 
State, and, frankly, Federal officials who operate in our 
States together into a uniform and common conversation to 
actually deliver some of the interoperability vision that was 
discussed here today.
    Thank you very much.
    [The prepared statement of Ms. Valicenti follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.042
    
    [GRAPHIC] [TIFF OMITTED] T3427.043
    
    [GRAPHIC] [TIFF OMITTED] T3427.044
    
    [GRAPHIC] [TIFF OMITTED] T3427.045
    
    [GRAPHIC] [TIFF OMITTED] T3427.046
    
    [GRAPHIC] [TIFF OMITTED] T3427.047
    
    [GRAPHIC] [TIFF OMITTED] T3427.048
    
    Mr. Putnam. Thank you.
    Our next witness is Marilyn Praisner. The Honorable Marilyn 
Praisner serves on the Montgomery County, MD County Council, 
first having been elected in 1990. She now chairs the 
management and fiscal policy committee of the Council. Prior to 
her election on the County Council, she focused great attention 
on education issues, having served 8 years on the county school 
board. Councilwoman Praisner is currently chairman of the 
National Association of Counties Telecommunications and 
Technology Committee and chairs a local government alliance 
group called TeleCommUnity. She joins us today representing the 
views of those organizations.
    You are recognized.
    Ms. Praisner. Thank you very much, Mr. Chairman. Good 
morning, Mr. Chairman, ranking members, and members of the 
subcommittees. My first statement has been circulated and will 
be entered into the record, so I will just summarize some of 
the points.
    We cannot achieve homeland security unless we have public 
safety wireless communications networks that are capable of 
supporting coordinated responses to threats at the 
neighborhood, county, regional, or national level. As multiple 
agencies in multiple jurisdictions respond to crises, 
interoperability is essential.
    Equally important is the need to address interference. The 
International Association of Chiefs of Police recently stated 
that 360 jurisdictions now have interference issues. That is 
more than in any other previous year. But rather than assign 
fault, let me share what I have learned from my work in this 
area.
    Public safety is a core function of all levels of 
government, and wireless communication is an essential element. 
Interoperability and interference are major obstacles, but so 
are turf battles and the lack of cooperation across 
jurisdictions. The solutions to the challenges of 
interoperability and interference will not be cheap, but 
neither is the cost of inaction.
    While there is no such thing as a one-size-fits-all 
solution, solutions can only be achieved if there is leadership 
at the Federal level and a commitment to cooperation at the 
State and local level. Congress and the FCC must recognize 
their responsibilities by taking steps to ensure that local 
public safety agencies have adequate funding to achieve 
interoperability and have access to additional spectrum to 
alleviate serious interference problems. Local government 
elected officials must be at the table if solutions are to be 
reached, for while we need the Federal Government's leadership, 
Federal leaders need local governments' ownership of the issue.
    One example of the challenges faced in the real world is 
the interference experience of Anne Arundel County, MD. In 
1998, Anne Arundel began to experience dead zones or blackouts. 
In 61 dead zones public safety personnel were unable to use 
portable receivers on their 800 megahertz radio system in the 
vicinity of commercial radio antenna sites.
    Now, while such dead zones would be a problem in any 
locale, in Anne Arundel County such dead zones have national 
implications, for in addition to being home to Annapolis, the 
State's capital, Anne Arundel is home to the National Security 
Agency, the U.S. Naval Academy, the Chesapeake Bay Bridge, and 
Baltimore-Washington International Airport.
    After having no success at the FCC, the county sought to 
avoid creation of any new dead zones by means of a land use 
approach. They required advance coordination for tower siting. 
The ordinance was challenged at the FCC as being a preempted 
action and the Commission agreed. Because other communities are 
experiencing the same challenges, the FCC, in March 2002, 
opened a rulemaking to consider a proposal by Nextel and others 
that would realign the spectrum at 800 megahertz. While it is 
possible that the FCC's decision will finish the job of 
interference reduction, no decision is expected until 2004, if 
then. That would mean that the county will have waited 6 years 
for a solution to their interference issue.
    On the bright side, there are many examples across this 
country where jurisdictions are working together to solve 
communication problems. We need to share these successes, 
because education and training and information are critical, 
and to that end I recommend to you the NTFI document that we 
all participated in, ``Why Can't We Talk?''
    At the Federal level, PSWN, now part of SAFECOM, has been 
very helpful in broadening that education. I attended my first 
SAFECOM meeting this past Monday, and there also I think we are 
now moving in the right direction. It is my hope that SAFECOM 
will coordinate and hopefully reduce the number of well 
intentioned Federal initiatives across a number of agencies.
    On an even brighter note, let me conclude by thanking the 
leadership of this committee for holding this hearing and for 
demonstrating that you get it. Local government officials must 
be at the table. We have to be here because there is no perfect 
national solution to interoperability or interference. The 
nuances of each region are too complex for a one-size-fits-all 
approach. Thank you very much for giving local government an 
opportunity to speak.
    [The prepared statement of Ms. Praisner follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.049
    
    [GRAPHIC] [TIFF OMITTED] T3427.050
    
    [GRAPHIC] [TIFF OMITTED] T3427.051
    
    [GRAPHIC] [TIFF OMITTED] T3427.052
    
    [GRAPHIC] [TIFF OMITTED] T3427.053
    
    [GRAPHIC] [TIFF OMITTED] T3427.054
    
    [GRAPHIC] [TIFF OMITTED] T3427.055
    
    [GRAPHIC] [TIFF OMITTED] T3427.056
    
    [GRAPHIC] [TIFF OMITTED] T3427.057
    
    [GRAPHIC] [TIFF OMITTED] T3427.058
    
    [GRAPHIC] [TIFF OMITTED] T3427.059
    
    [GRAPHIC] [TIFF OMITTED] T3427.060
    
    [GRAPHIC] [TIFF OMITTED] T3427.061
    
    [GRAPHIC] [TIFF OMITTED] T3427.062
    
    [GRAPHIC] [TIFF OMITTED] T3427.063
    
    [GRAPHIC] [TIFF OMITTED] T3427.064
    
    [GRAPHIC] [TIFF OMITTED] T3427.065
    
    Mr. Putnam. Thank you, Councilwoman.
    Our next and final witness for this panel is George Ake. 
Mr. Ake is program director for the Capital Wireless Integrated 
Network [CapWIN]. As most of us know, CapWIN is a project whose 
goal is to implement an integrated voice and mobile data 
network for transportation in public safety in the Washington, 
DC area. Prior to managing CapWIN, Mr. Ake served 6 years as 
director of research and planning for the North Carolina 
Highway Patrol. He is a graduate of Guilford College and 
received his MPA from North Carolina State. The 
interoperability issues facing Mr. Ake at CapWIN are perhaps a 
microcosm of the tremendous challenges we face nationally, so 
we look forward to hearing your remarks today, Mr. Ake.
    You are recognized.
    Mr. Ake. I am glad to be here with you, and I want to tell 
you what CapWIN is briefly before I start. And I would like to 
summarize my remarks.
    CapWIN enables first responders and incident management 
personnel from different organizations to communicate securely 
despite different systems. It is based on Internet protocol; it 
is based on a new way of doing business. We are using data now 
and hope to move to voice in the near future.
    Over 40 agencies are participating, and they are able to 
share information and get information they have never been able 
to get before. One of the most exciting things is to see multi-
disciplinary people communicating, like transportation talking 
to law enforcement, fire talking to transportation.
    CapWIN is a true partnership. What I mean by that, we are 
working on an interstate compact between Maryland, Virginia, 
the District, and the Federal Government to share information. 
I go around the country, and as I speak I have a sandbox 
example. I have three little girls in a sandbox, and I said if 
we could all learn to play like these three little girls are in 
this sandbox, we would really be a lot better off. I believe we 
have to change the way we are doing business in the future. 
That means local governments, State governments, and Federal 
agencies need to sit down in the same sandbox and learn to play 
together.
    We leveraged the investments we already have. If local 
governments build a wonderful system, it is absolutely crazy to 
throw it out; we need to use that system. And that is what we 
are trying to do, we are trying to bridge between those systems 
and enable them to use the investments that they have already 
done.
    Standards is a problem for us. When we started looking at 
CapWIN, we started looking at the standards and, frankly, it 
was very frustrating. Many agencies are doing standards and 
there seems to be no one agency coordinating this, so there is 
a need to look at the standards issue.
    Multi-year Federal support is essential for programs like 
CapWIN that go across multiple States. It takes time to develop 
partnerships. It takes time to develop trust. It takes time to 
develop government systems. We are also getting a lot of calls 
from around the country. Our representing project, AGILE with 
the National Institute of Justice, ODP, and also SAFECOM, we 
have been going around the country talking to people about what 
we have learned and the lessons that we have learned and the 
mistakes that we have made. It makes no sense for us to learn 
something and not share that. Or if we make a mistake, why let 
someone step in the same home? It just doesn't make sense. So 
there is a need to share lessons learned; there is a need to 
share wins as well as mistakes.
    End users must help design these systems. I am amazed 
sometimes when I see people who have the solution, yet they 
have never talked to anybody on the street that did it. We try 
to use that in developing this system. We have users, people on 
the street, come in and help us design this thing.
    And I would say to you, based on 30 years in law 
enforcement, if they don't use it everyday, when you have the 
terrorist thing, they won't know how to use it. We have to 
build systems they use everyday. I am amazed when I look at the 
system around D.C. I come from North Carolina, a small 
community. But the traffic, if you have a major incident on the 
Woodrow Wilson Bridge, it is a major problem here in D.C., and 
we need to learn to do that. So we have to use it everyday.
    Public safety agencies need to help sorting out all this 
information; what do we mean by IT, what do we mean by all 
these things. SAFECOM, I think, can help that by having some 
place that people can call and get information. Certainly 
spectrum is a big issue. Spectrum is a big issue that we need 
to address.
    Do we have everybody playing in the sandbox now at CapWIN? 
I would say to you no, but we have most of them. One of our 
vice chairs, Marilyn Praisner, said as one example that is 
working with us to move forward.
    In closing, I want to say to you in 1975 I had to go tell 
Trooper Tom Davis' wife and his two boys he wouldn't be able to 
come home again because he stopped somebody and he didn't have 
good information, and they killed him. I have never forgotten 
that. That is the hardest thing I have ever had to do. So we 
are talking about lives here. And I know all of you all are 
concerned, and that is the reason you are holding this hearing. 
I thank you for that, and I thank you for letting me come speak 
to you.
    [The prepared statement of Mr. Ake follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.066
    
    [GRAPHIC] [TIFF OMITTED] T3427.067
    
    [GRAPHIC] [TIFF OMITTED] T3427.068
    
    [GRAPHIC] [TIFF OMITTED] T3427.069
    
    [GRAPHIC] [TIFF OMITTED] T3427.070
    
    [GRAPHIC] [TIFF OMITTED] T3427.071
    
    [GRAPHIC] [TIFF OMITTED] T3427.072
    
    [GRAPHIC] [TIFF OMITTED] T3427.073
    
    [GRAPHIC] [TIFF OMITTED] T3427.074
    
    [GRAPHIC] [TIFF OMITTED] T3427.075
    
    [GRAPHIC] [TIFF OMITTED] T3427.076
    
    [GRAPHIC] [TIFF OMITTED] T3427.077
    
    [GRAPHIC] [TIFF OMITTED] T3427.078
    
    [GRAPHIC] [TIFF OMITTED] T3427.079
    
    [GRAPHIC] [TIFF OMITTED] T3427.080
    
    [GRAPHIC] [TIFF OMITTED] T3427.081
    
    Mr. Putnam. Thank you, Mr. Ake.
    I thank the entire panel for your valuable input. You have 
added greatly to this dialog and even generated questions that 
I know will be reflected in the second hearing with the Federal 
officials.
    For logistical purposes, we need to wrap up this first 
hearing by 11:45 so that we can seat the second hearing in time 
to complete that work and clear the room for the full 
committee's business meeting. So I will allocate 5 minutes to 
Chairman Shays, 5 minutes to the minority, and following that 
we will go to 3 minute rounds of questions for the rest of the 
Members, and that should allow everyone to participate and 
still keep us on track.
    So with that I will recognize Chairman Shays for 5 minutes.
    Mr. Shays. You know, I am going to defer to Mr. Janklow and 
give him my 5 minutes.
    Mr. Putnam. Very well.
    Mr. Janklow. Thank you very much, Mr. Shays.
    And, Mr. Chairman, I am going to ask some leading questions 
because it saves me time, if I can.
    National standards versus salesmen. Do you all agree that 
right now we have thousands of local first responder agencies 
that really are tied to the salesmen and women who are selling 
this stuff to them, and we need to establish a national 
standard around which they make their purchases? Are there any 
of you that disagree with that?
    One, two. Do you agree that systems that are put in place 
need to be trunked, that people have to have the ability to 
have trunk systems throughout their jurisdictions? Are there 
any of you that disagree with that?
    Mr. Shays. I think for the record we better, claiming my 
time a second, make sure that there is an answer that we can 
record.
    Mr. Janklow. Go ahead, Ms. Ward.
    Ms. Ward. Marilyn Ward, NPSTC. Trunking is very spectrally 
efficient, and I would say that you are able to get a lot more 
people on the same system, but there are a lot of rural areas 
where trunking would not really be something they would have to 
do. If you are in a rural area and you only need one frequency, 
it is a waste of money to trunk it.
    Mr. Janklow. But to the extent that you have a system that 
has land lines connecting your towers, then it is just a matter 
of how many channels you have available in a rural area; isn't 
that correct?
    Ms. Ward. With multiple channels.
    Mr. Janklow. Yes, ma'am.
    Ms. Ward. For a lot of users, trunking is the way to go.
    Mr. Janklow. And in some States the 700 and 800 frequencies 
won't work because of the distance that those megahertz travel 
as opposed to things that are lower in a high band area, like 
150 or 450.
    Do you all agree that the exact frequency isn't nearly as 
important as the interoperability of the system?
    Ms. Ward. Correct.
    Mr. Janklow. The lady from Maryland indicated it took 6 
years to solve a problem. World War II only lasted 3 years for 
us, and yet it took twice as long as World War II lasted for 
America to solve a problem of operability within dead zones in 
the State of Maryland.
    Ms. Praisner. Congressman, I am sorry. If I left that 
impression, I would like to be able to correct it. It has not 
been solved. I said that if the FCC moves in 2004, it would be 
6 years since Anne Arundel identified the problem.
    Mr. Janklow. So it may last as long as the Vietnam War 
before it is done.
    Ms. Praisner. The problem has not been solved.
    Mr. Janklow. OK. And if I could, with respect to the FCC, 
am I correct that because of the way they have allocated 
channels historically, there are different parts of the 
spectrum that are set aside for agencies? For example, the 
American railroad industry has a large block of channels in the 
150 area that they don't use, and they are not willing to give 
up to anybody, and because of the system, am I correct, Mr. 
Jenkins, the way the system operates in the FCC, it is not 
their fault, but their procedures make it virtually impossible 
for anybody to come in in any reasonable amount of time and get 
their hands on the frequencies until the railroads decide to 
use them 200 or 300 years from now?
    Dr. Jenkins. Basically, yes. Part of it is just basically 
that the rulemaking process is not a quick process, and FCC has 
a certain rule process with things, and it is not speedy.
    Mr. Janklow. And to the extent that Congress could speed 
up, by legislation, the rulemaking process in this specific 
area, am I correct, folks, it would be a godsend for the 
problems that this country faces? Are there any of you that 
disagree with that?
    With respect to Federal agencies, the ANSI 25 standard, is 
that an open architecture, or is that still controlled by 
Motorola?
    Ms. Ward. That is an open ANSI 102 standard, where there 
are several manufacturers that are building.
    Mr. Janklow. So E.F. Johnson makes it and the old General 
Electric, I can't think of what they are called now, but the 
old GE.
    Ms. Ward. The old GE is Maycom, and they are looking at 
phase two.
    Mr. Janklow. OK. And with respect to Federal agencies, for 
example, the Federal Forest Service, they operate on 150, and 
they are not willing anyplace in America to go on other first 
responders' frequencies because they claim they have to have 
the ability, when they move their people from State to State, 
they have to have the ability to communicate. So when you have 
fires in California and firefighters come from all over the 
country, they come with radios that can't work with the 
California authorities, isn't that correct? And it is the same 
in your States.
    I happen to live in a place in South Dakota that is 4 miles 
from the Iowa border and 3 miles from the Minnesota border. To 
the extent that we have a crisis or an emergency, northwest 
Iowa responding to southwest Minnesota just magnifies the 
problem with respect to the crisis that we are having.
    My time is up, Mr. Chairman, but what I would like to say 
is this panel is phenomenal in the testimony they gave. Every 
one of them makes sense. We ought to wrap it all together, put 
it in legislation, and mandate it, because Congress has created 
this problem with the laws that we passed and those we failed 
to pass to deal with this, so we have allowed this to become 
this type of problem. I can tell you, Mr. Chairman, Somalia and 
chad will have, 2 years from now, better interoperability and 
better emergency first responder communication than we do 
because they don't have an entrenched system in place that has 
to be dealt with.
    Am I correct, folks? They don't have an entrenched system, 
so they are going to build a new system that is wireless that 
handles the things that we in America can't handle.
    Thank you for yielding your time to me, Mr. Shays.
    Mr. Putnam. Thank you, Governor, and you are going to get 
your next bite at the apple in panel two, when you can have the 
Federal folks, and I am sure they are all anxiously awaiting.
    Mr. Janklow. I hope the BIA is here, the National Park 
Service is here, and the Forest Service is here, and ATF is 
here.
    Mr. Putnam. Very well.
    The gentleman from Missouri, Mr. Clay, unless you want to 
give your time to Governor Janklow too.
    Mr. Clay. I may just yield that to Governor Janklow. Let me 
ask a couple of questions, and if there is time after, I would 
love to give it back to him.
    The term interoperability may not be easily defined or 
grasped. Incidents requiring interoperability of public safety, 
communications for first responders can occur over a range of 
scenario from responding to daily mutual aid events to major 
events such as the Olympics that occur over days or weeks. The 
term first responder also appears to be evolving to include 
more professions, such as health departments and other 
professions besides the traditional first responders such as 
police and fire.
    Question: How do you define interoperability and who is a 
first responder?
    Perhaps, Dr. Jenkins, you may want to tackle it.
    Dr. Jenkins. Well, we tried to define that in the 
statement, that is, that in our view, interoperability is the 
ability to exchange voice or data information in any situation 
in which first responders need to coordinate their actions, and 
need to be able to do that in order to coordinate their 
actions. You know, but we also point out that the definition of 
first responder is basically situation-specific. You don't need 
the same people responding, necessarily, to a car accident that 
you do to something like September 11th. And they may include, 
also depending on the situation, first responders can include 
private entities. For example, in some jurisdictions, first 
responders themselves are private contractors, that is, the 
local governments contract with them for public services. It is 
very important to be able to coordinate if there is an attack 
on an electrical grid or something to be able to coordinate 
with private entities.
    So I don't think there is a clear hard and fast definition 
for first responder. I think the Homeland Security Act has a 
generally good definition that it uses that is a fairly broad 
definition. I do think that one needs to think beyond the 
traditional sort of fire-police-emergency medical service 
notion when you think of first responders and who needs to 
communicate with one another.
    Mr. Clay. Anyone else want to try to tackle it? Yes, Ms. 
Valicenti.
    Ms. Valicenti. I would say that first responders now 
include almost all disciplines that can in fact mitigate an 
event or an attack, and that very clearly is going to include 
any bioterrorism attack, more medical folks probably than we 
have ever seen before. And I would suggest to you that 911 is 
also a first responder; it is the first of the first 
responders.
    Mr. Clay. Thank you.
    For Councilwoman Praisner, good morning. Let me ask you do 
you feel the Federal Government has done enough to reach out to 
local officials in their individual efforts to reach first 
responder interoperability?
    Ms. Praisner. Sir, with all due respect to the Federal 
agencies, it depends upon which agency and it depends upon what 
level and it depends upon what issue. And I would say in 
general, if you put it all into one pot or Mr. Ake's sandbox, I 
would have to say no, the Federal Government as an entity has 
not adequately reached out to local government. And by that I 
would also add that it may very well be that relationships are 
established with public safety personnel and with the 
traditional elements, but not beyond that level, and certainly 
not with local elected officials. And it is the local elected 
official who has to raise his or her hand to say yes for a 
funding, and in tough times making decisions about one project 
or another, without the kind of information that you need, is 
also very challenging.
    Mr. Clay. So there is not a real formal relationship 
established between local and Federal.
    Ms. Praisner. Well, I think there are through certain 
structures, and we are trying, as the National Association of 
Counties and I would say the League of Cities and the 
Conference of Mayors and our umbrella organizations, to 
participate, but I think at some level it is not the first 
group of folks that Federal agencies think of including in that 
dialog. Certainly that was the experience initially with 
SAFECOM. I think we are there now, and I tend to be an optimist 
looking at the glass half full. We are making significant 
progress recently.
    Mr. Clay. I see Ms. Ward with her hand up. I know that my 
time is up.
    Can she answer, Mr. Chairman, please?
    Ms. Ward. I would like to add to that that the National 
Public Safety Telecommunications Council has been supported by 
the AGILE program, which is a Federal initiative, and their 
mission is to support State and local public safety 
communications. So we have been very well supported by them. 
They also put together a group, as Marilyn has referred to, the 
National Task Force for Interoperability, which most of the 
people at this table were members of, to try to bring in the 
State and local elected officials. So we have been working with 
the feds, but on a limited basis.
    Mr. Clay. I thank you and thank the panel for their 
responses.
    Mr. Putnam. Thank you, Mr. Clay.
    I overlooked one item. I understand we have received 
written testimony for the record from Mr. Vincent Stile, the 
president of the Association of Public Safety Communication 
Officials International. Mr. Stile is also the policy radio 
communications systems director for Suffolk County, New York 
Police Department.
    I ask unanimous consent that Mr. Stile's testimony be 
inserted in the appropriate place in the records.
    Without objection, we will do that and place his statement 
in the record.
    [The prepared statement of Mr. Stile follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.082
    
    [GRAPHIC] [TIFF OMITTED] T3427.083
    
    [GRAPHIC] [TIFF OMITTED] T3427.084
    
    [GRAPHIC] [TIFF OMITTED] T3427.085
    
    [GRAPHIC] [TIFF OMITTED] T3427.086
    
    [GRAPHIC] [TIFF OMITTED] T3427.087
    
    [GRAPHIC] [TIFF OMITTED] T3427.088
    
    [GRAPHIC] [TIFF OMITTED] T3427.089
    
    [GRAPHIC] [TIFF OMITTED] T3427.090
    
    [GRAPHIC] [TIFF OMITTED] T3427.091
    
    Mr. Putnam. At this time I recognize Mr. Schrock from 
Virginia.
    Mr. Schrock. Thank you, Mr. Chairman. I love Bill Janklow, 
but I hate following Bill Janklow, because he says it exactly 
as it is, and you are five miraculous people. In fact, I have 
had the privilege of hearing Ms. Valicenti and Councilwoman 
Praisner before, and I don't know why we can't get our act 
together and get this done. How many hearings do we have to 
have before we get it done?
    I looked at Congresswoman Harman's testimony. She talks 
about the fires. My family and my wife's family live there; my 
wife and son were caught in those fires, so I know how bad it 
is. You know, if they had something, they could have had the 
tracking maps, the locations, on and on it goes.
    And I think one of the most telling things is from Marilyn 
Ward's testimony. She says in here interoperability has been 
brought to the forefront by disasters such as the Air Florida 
plane crash here in D.C. on the 14th Street Bridge. Are any of 
you aware how long ago that was? Twenty-one years ago. I was 
here when that happened. Twenty-one years ago. Yet we never 
seem to get this thing solved.
    I heard Mr. Jenkins say there is no single bullet solution. 
I don't think he is advocating that, I think he thinks that is 
just the situation, but there needs to be.
    My question is, then, who do you believe should and will 
decide the standards for preparedness for each locality, for 
each State, for each area, and the country? In our area, I 
represent Virginia Beach and Norfolk. We too have our 
Chesapeake Bay Bridge as well. And we have massive numbers of 
military, a huge port there, and I worry that we are going to 
have a problem. Any money I am getting for my localities right 
now I am making sure they are getting the same equipment. 
During our recent hurricane it worked. It really did. But we 
are just Hampton Roads area; that is not Richmond, northern 
Virginia, Virginia, or the country.
    Who's got the responsibility for doing this? Ultimately I 
think we do, but at what point does it become a local, State, 
or region responsibility?
    Yes, ma'am?
    Ms. Ward. Right now the SAFECOM program is working with 
NIST to work in this direction, and SAFECOM is a good place 
because we have representatives on the executive committee and 
other levels that are State and local representatives. You 
can't create a standard without having the people that are 
impacted by the standard at the table. And so that is an 
excellent forum to do that because you have the leadership of 
all of the different public safety organizations available in 
the executive committee and the other levels of SAFECOM.
    Mr. Schrock. Ms. Valicenti.
    Ms. Valicenti. I would support that SAFECOM is a very good 
area to have that conversation, but I would also encourage that 
the individual States, I give you the State perspective, form 
committees, form councils to discuss this issue, because 
ultimately you have to get buy-in. You have to get buy-in that 
this is a good thing to do to adhere to a set of standards, and 
that, frankly, is not an overnight thing.
    The other issue that maybe we have not yet discussed nearly 
to the same extent is the availability of equipment, and 
manufacturers have to agree to provide equipment to a set of 
standards; and that conversation is really with the private 
sector and the public sector officials.
    Mr. Schrock. Your State adjoins my State, and if we have 
those committees and Kentucky does their own thing and Virginia 
does their own thing, yet there has probably got to be a 
national standard somewhere so before these committees get 
together they are all working from the same standard so 
everybody can work together.
    Ms. Valicenti. Absolutely. Kentucky is surrounded by seven 
States.
    Mr. Schrock. We are privileged to be one of them.
    Ms. Valicenti. And we know that all incidents will not 
occur in the middle of the State.
    Mr. Schrock. That is exactly right.
    Mr. Ake.
    Mr. Ake. I think that the multi-State compact that we are 
working on in CapWIN, with Virginia, Maryland, and D.C., we 
will learn a lot of lessons about that. I am already running 
into lessons with three different laws, three different ways of 
doing business, and trying to combine that into one, and it has 
been a real learning experience for me, coming from a State 
that has a State-wide system. So I think we will learn a lot 
from that, and I think ultimately the partnership piece has to 
be put together, but the Federal folks have to come together 
with a standard and some guidance and that kind of thing. What 
we have had in the past, we have had equipment being built to 
different standards, not using IP standards or whatever, and 
none of them will talk to one another. So we have to say to 
folks, our vendors around the country, this is what we want and 
this is what we want it to do.
    Mr. Schrock. I agree. You agree as well? I am old, guys, I 
am 62. Let us get this done, because I don't want to come back 
in another 20 years and have to say, gee, 20 years ago I 
mentioned that Ms. Ward talked about the same thing that 
happened 21 years ago. This is ridiculous. The Governor is 
right, we have to get this done and get it done quick.
    Thank you, Mr. Chairman.
    Mr. Putnam. Thank you, Mr. Schrock.
    Mr. Ruppersberger.
    Mr. Ruppersberger. I didn't know 62 was old.
    First, there is a lot of frustration here, and I was a 
former county executive, and when you manage your public safety 
one of your biggest expenses and frustration is the 
communication; and it is not with your own jurisdictions, but 
it has to be regional, State-wide, and even more than that, and 
I will give you an example. We all know of the situation with 
the snipers in the Washington area, and in the evidence that 
was found, they were then going to target schools in Baltimore, 
elementary schools in Baltimore. And, you know, over and over, 
and especially with drugs, which is probably still our most 
serious crime today, and the implications of drugs, we need to 
be able to communicate just beyond our own regions and States. 
You know, crime has no geographical boundary, and if you can't 
communicate, you just can't do the job. As a result of 
September 11, now it has come to the forefront even more that 
we have to do something.
    Now, Councilwoman Praisner, you made a comment, and I would 
like you to explore that, because what we want to do here is 
get to the bottom line and make recommendations. I mean, that 
is what we really want to do. You made a comment that you felt 
that local government needs to have ownership of these systems. 
I am not sure if I agree, but I would like you to explore that. 
I think that you have to have really a national plan and the 
help of the Federal Government to coordinate it. You know how 
difficult it is to get a lot of elected officials together and 
come to an agreement. Just look at us here on Capitol Hill. So 
we need that formula to pull together to focus on the right 
plan, and then we need to talk about a lot of times it comes 
down to money, how are we going to pay for it. And there are 
over 3,000 counties, as you know, or more, in this country that 
might not be able to do it.
    So let me have your thoughts on that, or anyone else who 
wants to talk about that issue, implementation.
    Ms. Praisner. Congressman, thank you very much. The issue 
of ownership is not an issue of who has title to the document 
or the equipment. The issue of ownership is one of assuming 
responsibility and knowing that you are part of the solution, 
and that you are at the table as the solution is worked 
through.
    You were extremely effective as county executive and as 
president of the Maryland Association of Counties because your 
philosophy was, and is, to bring everyone to the table, and you 
are anxious to listen to what the views and thoughts of people 
are before decisions are made.
    One of the challenges we face from a local elected official 
perspective is that lack of opportunity in many occasions, on 
many arenas, for participation to offer the perspective of what 
actually does work in your community. As George indicated, 
whether it is the first responder himself or herself who has to 
use the equipment or, in my perspective, the local elected 
official who has to raise his or her hand and make a decision 
as to whether you fund, and in these times it is a case, and I 
would suspect that it in any time it is a case of making 
choices. And so the question is do I make this choice to fund 
or support this equipment, or do I vote to participate in this 
structure, or do I not. And it is a tug and it is a question of 
education and information, ownership and partnership, and we 
don't always have that; and local elected officials are often 
the last people invited to the table, if at all.
    And that is my point, is that whenever someone may dictate 
from whatever level they may be, unless you have the 
participants of the first responders and the local elected 
officials who have to fund those programs or systems, you don't 
have ownership in the best sense of the word.
    Mr. Ruppersberger. OK.
    My time is up? That was a quick 5 minutes.
    Mr. Putnam. We owe you a couple of minutes.
    Mr. Ruppersberger. Oh, I thought so.
    Mr. Putnam. We gave you 3, but because so many people have 
left, we will give everybody 5. So keep on going.
    Mr. Ruppersberger. OK, well, let us get to the bottom line. 
What would you, in a very concise statement, or anyone on this 
panel, what do you think we need to do? We have all talked 
about different issues in our statements, but we need to talk 
about funding; we need to talk about pulling it together. How 
would you recommend we do that from your perspective?
    Ms. Valicenti. I would like to point out two issues where I 
think you could be very instrumental. The first one is the 
whole funding issue. I don't think any single entity will have 
all the funding, so there has to be a drive toward pooled 
funding; and pooled funding is Federal funds, State funds, and 
local funds. And we have a couple of examples where that has 
worked, and I think the more that the States can do to 
coordinate that funding, the more likely we will, then, to 
provide solutions which are going to be interoperable.
    But I think that there is a second issue, and that is one 
where I think that this committee can be most influential, and 
that is that the funding that is provided from the Federal 
level come with a requirement that it has to either regionally 
participate in an interoperable environment or State 
environment, or some kind of strings attached as far as 
standards. And unless that happens, we will continue to 
recreate what we have been creating for the last 20-some years, 
stovepipe systems.
    Mr. Ruppersberger. Are you saying that Federal standards or 
bureaucracy is getting in the way?
    Ms. Valicenti. No, I don't think so. I think that the 
discussion and, frankly, SAFECOM is probably a good example 
where the discussion of standards is occurring, the discussion 
on how to do that is occurring, and I think that there are more 
and more forums that are buying into a standards-based.
    Mr. Ruppersberger. Chairman Shays put together a bill about 
standards with first responders, and maybe we could continue to 
explore that.
    On your bill about standards that we have for first 
responders, maybe we can tie this subject matter into that 
somehow.
    Mr. Shays. Right. If the gentleman would yield.
    It is really our bill, yours and mine, and some others in 
the committee. We are trying to insert that in the bill on the 
select committee and Homeland Security, which is a little 
broader, and there is a way to do that in that bigger bill, and 
we should do it.
    Mr. Ruppersberger. Good.
    Ms. Valicenti. I would suggest that if you could do those 
two things, that request for money has to demonstrate that it 
will buy into standards and, second, it has to demonstrate that 
it buys into a larger interoperable environment, multi-
jurisdictional environment.
    Mr. Ake. In North Carolina, in my other life, I sat on a 
board that did grants, and we said to the people of North 
Carolina, if you want to be considered, it has to be multi-
jurisdictional. It was amazing to see them start forming 
partnerships and start working together. So I would say to you 
that is certainly a method to use. They have to feel like they 
have ownership and they have all got to work together, but 
there has to be some motivation for them to do that.
    Ms. Praisner. The only comment that I would add is that I 
don't think this is a one time situation where it is one check 
and one dollar amount and one time. This is a significant 
amount of money over an extended period of time, and it is 
going to require continuous progress; it can't be done in 1 day 
or one appropriation.
    Mr. Putnam. Thank you, Mr. Ruppersberger.
    I will now call on Chairman Shays for our final 5 minutes 
of questioning.
    Chairman Shays.
    Mr. Shays. I thank the gentleman.
    In the State that I am in, we have no county government, so 
in one sense it seems even more difficult to get cooperation. 
But because of that what the State did is it basically said 
when it got money from the Department of Homeland Security, it 
said it is not giving out this money to each local community, 
it is going to come out only if you come together. And the 
trend in the Federal Government has been, as well, to try to 
fund grants where there is cooperation among more than just one 
or two entities.
    I remember when I was in the State house dealing with 
September 11, and it is surprising to think about it now. Our 
opposition was the firemen and the policemen who didn't want to 
have to come under the same jurisdiction; fire didn't want to 
be with police, the police didn't want to be with fire, which 
was kind of fascinating. Now we have solved that problem, and 
now we look back on it with some horror that there was ever 
this ownership.
    I feel, at least in our State, we are finding ways to have 
our communication be able to operate among jurisdictions and 
among different organizations and entities, at least in our 
State. What I am having the hardest time reconciling is the 
spectrum issue, and I would love someone to address that. As 
clearly and as succinctly as you can, tell Congress what you 
want us to do about the spectrum.
    Ms. Ward. Public safety needs more spectrum.
    Mr. Shays. Why don't you pull your mic closer, if you don't 
mind.
    Ms. Ward. Public safety needs more spectrum. We have new 
technologies that are emerging; we would like to be able to 
take advantage of them. It is very difficult when you are in 
competition with broadcasters who have a lot more people to be 
able to come up here. I mean, I am on my work day here. We have 
volunteers. We really need to have that interference issue 
resolved. Congress should encourage the FCC to do that before 
2004.
    We really need to get the 700 megahertz band cleared. 
Congress needs to visit that issue and get that taken care of 
as soon as possible. We need the spectrum. It has already been 
promised to us, but now we need to get on it. And that is how 
we are going to build regional systems, we need the spectrum to 
build the regional systems. And the 700 megahertz band is going 
to be able to afford us a lot more flexibility in doing that.
    Also, allow grant funding so that we can develop new 
technology standards. That is going to be an important thing 
for us. And when you do your grant funding, I wholeheartedly 
agree that it needs to be required in there that the systems be 
multi-jurisdictional, and they should be focused on a standard.
    Ms. Praisner. From my perspective, one of the concerns that 
I have is if folks have to move, will they be held harmless by 
the process.
    Mr. Shays. When you say they have to move, would you 
explain?
    Ms. Praisner. If one has to move to 700 megahertz.
    Mr. Shays. If they have to give up what they have and go 
somewhere else?
    Ms. Praisner. Then they should be held harmless, and the 
question of the cost of that transition and the manner in which 
that matter would occur. There is great concern out there and 
anxiety, having expended significant revenue for an 800 
megahertz system, to then tell a local government that you have 
to move from it because that is the solution that is proposed 
for their region and their area. And having expended those 
funds, will they be held harmless in the process.
    Mr. Shays. Anyone else want to respond to that question?
    Ms. Ward. The issue that Ms. Praisner is speaking about is 
a plan that is in front of the FCC that would allow for some 
compensation to come from the cellular industry, but it would 
require that local government move their users to the 700 band 
instead of the 800 band that they are currently in, and there 
could be some additional cost to local government for that. I 
don't know if you are familiar with that plan, but that is 
formally called the consensus plan that the majority of the 
public safety associations support.
    Mr. Shays. My colleague said that it wouldn't solve it. 
Maybe you would like to get a response, then.
    Mr. Janklow. My question is, for example, we went 150. Had 
we gone 700, for which we had the frequencies available, we 
would have needed five more towers because of how they 
penetrate, correct?
    Ms. Ward. That is correct.
    Mr. Janklow. And so for a State like mine, that went 150, 
we wouldn't have to migrate to that standard, correct? So the 
700 won't solve the problem for everybody, but for a lot of you 
in America it will.
    Ms. Ward. That is correct.
    Mr. Janklow. What the FCC needs to do is get the bandwidth 
cleared out.
    Ms. Ward. That is correct.
    Mr. Janklow. Yes, ma'am. Thank you.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Putnam. Thank you, Mr. Shays. I appreciate your 
leadership, and we thank Governor Janklow and Mr. Schrock and 
Mr. Ruppersberger, and all the others who participated in this 
hearing.
    I particularly want to thank our five witnesses on this 
panel for your testimony and expertise that you have provided 
us. You have given us a tremendous perspective that will 
benefit us greatly as we move into the second hearing, which 
deals with our Federal agencies, and I think that you have 
given us a clear path for improving your lot.
    As is customary, in the event that there may be additional 
questions for panelists or statements that we did not have time 
for today, the record will remain open for 2 weeks for such 
submissions.
    Thank you all very much, and we stand adjourned. The second 
hearing will begin immediately.
    Mr. Janklow. Mr. Chairman? Mr. Chairman? Might you ask the 
panel if they would submit within the 2-week period, those that 
are interested, a statement as to how SAFECOM, since that is a 
Federal agency or Federal group, could be modified to take in 
the local people as part of the process?
    Mr. Putnam. Consider it done.
    We are adjourned. Thank you.
    [Whereupon, at 11:45 a.m., the subcommittee adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3427.142

[GRAPHIC] [TIFF OMITTED] T3427.143

[GRAPHIC] [TIFF OMITTED] T3427.144

[GRAPHIC] [TIFF OMITTED] T3427.145

[GRAPHIC] [TIFF OMITTED] T3427.146

[GRAPHIC] [TIFF OMITTED] T3427.147

[GRAPHIC] [TIFF OMITTED] T3427.148

[GRAPHIC] [TIFF OMITTED] T3427.149

[GRAPHIC] [TIFF OMITTED] T3427.140

[GRAPHIC] [TIFF OMITTED] T3427.141

[GRAPHIC] [TIFF OMITTED] T3427.092

[GRAPHIC] [TIFF OMITTED] T3427.093

[GRAPHIC] [TIFF OMITTED] T3427.094

[GRAPHIC] [TIFF OMITTED] T3427.095

[GRAPHIC] [TIFF OMITTED] T3427.096

[GRAPHIC] [TIFF OMITTED] T3427.097

[GRAPHIC] [TIFF OMITTED] T3427.150

[GRAPHIC] [TIFF OMITTED] T3427.151

[GRAPHIC] [TIFF OMITTED] T3427.152

[GRAPHIC] [TIFF OMITTED] T3427.153

[GRAPHIC] [TIFF OMITTED] T3427.154

[GRAPHIC] [TIFF OMITTED] T3427.155

[GRAPHIC] [TIFF OMITTED] T3427.156

[GRAPHIC] [TIFF OMITTED] T3427.157

[GRAPHIC] [TIFF OMITTED] T3427.158

[GRAPHIC] [TIFF OMITTED] T3427.159

[GRAPHIC] [TIFF OMITTED] T3427.102

[GRAPHIC] [TIFF OMITTED] T3427.103

[GRAPHIC] [TIFF OMITTED] T3427.104

[GRAPHIC] [TIFF OMITTED] T3427.230

[GRAPHIC] [TIFF OMITTED] T3427.231

[GRAPHIC] [TIFF OMITTED] T3427.232

[GRAPHIC] [TIFF OMITTED] T3427.233

[GRAPHIC] [TIFF OMITTED] T3427.234

[GRAPHIC] [TIFF OMITTED] T3427.235

[GRAPHIC] [TIFF OMITTED] T3427.236

[GRAPHIC] [TIFF OMITTED] T3427.098

[GRAPHIC] [TIFF OMITTED] T3427.099

[GRAPHIC] [TIFF OMITTED] T3427.100

[GRAPHIC] [TIFF OMITTED] T3427.105

[GRAPHIC] [TIFF OMITTED] T3427.106

[GRAPHIC] [TIFF OMITTED] T3427.107

[GRAPHIC] [TIFF OMITTED] T3427.108

[GRAPHIC] [TIFF OMITTED] T3427.109

[GRAPHIC] [TIFF OMITTED] T3427.110

[GRAPHIC] [TIFF OMITTED] T3427.111

[GRAPHIC] [TIFF OMITTED] T3427.112

[GRAPHIC] [TIFF OMITTED] T3427.113

[GRAPHIC] [TIFF OMITTED] T3427.114

[GRAPHIC] [TIFF OMITTED] T3427.115

[GRAPHIC] [TIFF OMITTED] T3427.116

[GRAPHIC] [TIFF OMITTED] T3427.117

[GRAPHIC] [TIFF OMITTED] T3427.118

[GRAPHIC] [TIFF OMITTED] T3427.119

[GRAPHIC] [TIFF OMITTED] T3427.120

[GRAPHIC] [TIFF OMITTED] T3427.121

[GRAPHIC] [TIFF OMITTED] T3427.122

[GRAPHIC] [TIFF OMITTED] T3427.123

[GRAPHIC] [TIFF OMITTED] T3427.124

[GRAPHIC] [TIFF OMITTED] T3427.125

[GRAPHIC] [TIFF OMITTED] T3427.126

[GRAPHIC] [TIFF OMITTED] T3427.127

[GRAPHIC] [TIFF OMITTED] T3427.128

[GRAPHIC] [TIFF OMITTED] T3427.129

[GRAPHIC] [TIFF OMITTED] T3427.130

[GRAPHIC] [TIFF OMITTED] T3427.131

[GRAPHIC] [TIFF OMITTED] T3427.132

[GRAPHIC] [TIFF OMITTED] T3427.133

[GRAPHIC] [TIFF OMITTED] T3427.134

[GRAPHIC] [TIFF OMITTED] T3427.135

[GRAPHIC] [TIFF OMITTED] T3427.136

[GRAPHIC] [TIFF OMITTED] T3427.137

[GRAPHIC] [TIFF OMITTED] T3427.138

[GRAPHIC] [TIFF OMITTED] T3427.139



    FIRST RESPONDER INTEROPERABILITY: CAN YOU HEAR ME NOW? (FEDERAL 
                             PERSPECTIVES)

                              ----------                              


                       THURSDAY, NOVEMBER 6, 2003

        House of Representatives, Subcommittee on National 
            Security, Emerging Threats and International 
            Relations, joint with the Subcommittee on 
            Technology, Information Policy, 
            Intergovernmental Relations and the Census, 
            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 11:45 a.m., 
in room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the Subcommittee on National Security, 
Emerging Threats and International Relations) presiding.
    Present: Representatives Putnam, Duncan, Janklow, Murphy, 
Schrock, Shays, Clay, Maloney, Ruppersberger, Sanchez, and 
Tierney.
    Also present: Representatives Harman and Weldon.
    Staff present: Lawrence Halloran, staff director and 
counsel; and Robert A. Briggs, clerk, Subcommittee on National 
Security, Emerging Threats and International Relations; Bob 
Dix, staff director; Ursula Wojciechowski, clerk; and John 
Hambel, counsel, Subcommittee on Technology, Information 
Policy, Intergovernmental Relations and the Census; Grace 
Washbourne, professional staff member; David McMillen, minority 
professional staff member; Jean Gosa, minority assistant clerk; 
and Casey Welch and Jamie Harper, minority legislative 
assistants, Committee on Government Reform.
    Mr. Shays. A quorum being present, the Subcommittees on 
National Security, Emerging Threats and International 
Relations, and Technology, Information Policy, 
Intergovernmental Relations and the Census hearing entitled 
``First Responders Interoperability: Can You Hear Me Now? 
(Federal Perspectives)'' is called to order.
    This hearing brings before us key Federal officials 
responsible for the policies, technologies, standards, and 
frequency allocations needed to advance interoperability. We 
appreciate their being here and look forward to their 
testimony.
    I will put on the record my statement that opened the 
previous hearing.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.160
    
    [GRAPHIC] [TIFF OMITTED] T3427.161
    
    Mr. Shays. I will recognize any Member who would like to 
make a statement for this hearing before we recognize our 
panel.
    Is there anyone who would like to make a statement? I 
recognize the chairman of the subcommittee.
    Mr. Putnam. Just very briefly, Mr. Chairman.
    I appreciate your leadership on this, and I have to tell 
you how very disappointed I am in the difficulty that we had 
pulling together the witnesses from the Federal Government. The 
first panel, the first hearing, and it was a hearing, not a 
panel because of the uprising by the administration witnesses, 
gave us a pretty clear outline of the cultural challenges that 
we face in bringing interoperability and cooperation to this 
problem.
    Our two subcommittees managed to work through the 
jurisdictional issues, and the Federal Government can't seem to 
figure out how to do that. And when agencies threaten to refuse 
to come to a congressional hearing because they are not going 
to get to speak first, it is a little bit embarrassing. It is 
very embarrassing. And I am certain that a lot of these things 
get wrapped up in staff conflicts and things like that, but if 
you are a member of the Rotary Club or the Kiwanis Club or, 
when you are back, it is your homeowner's association, I think 
that if you raise the issue with your neighbors that we thought 
about not going to the congressional hearing because they 
weren't going to put the administration first, we were going to 
hear from the State and local officials and the industry 
beforehand, I think that they would have a hard time seeing it 
from your perspective.
    Frankly, I am glad that we weren't made aware of this until 
the last minute, because if it had been up to me, we would have 
just had empty chairs, and with place cards where the agencies 
might have been. But it is perfectly illustrative of the 
problem about working together and bringing interoperability 
and bringing coordination to this very, very serious issue.
    And so I just wanted to begin, Mr. Chairman, by thanking 
you for your leadership and thanking the administration 
representatives for finding a suitable format for which they 
would share their insight into this issue.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.162
    
    [GRAPHIC] [TIFF OMITTED] T3427.163
    
    [GRAPHIC] [TIFF OMITTED] T3427.164
    
    Mr. Shays. I thank the gentleman.
    Anyone else who has a statement?
    I will say for the record that our witnesses were good 
enough to be at the previous hearing that we had, and I thank 
them for that. So you will be able to make comment on what was 
said.
    But I do share your concerns, Mr. Putnam.
    We will also put on the record Mr. Clay's opening statement 
and I think the opening statements that all the members had for 
this hearing as well.
    At this time, I will just recognize those who are 
participating in this hearing: The Honorable Karen S. Evans, E-
Government IT Director, U.S. Office of Management and Budget; 
Mr. David Boyd, Program Manager, SAFECOM, Wireless Public 
Safety Interoperable Communications Program, U.S. Department of 
Homeland Security; Dr. John S. Morgan, Assistant Director for 
Science and Technology, National Institute of Justice; and John 
Muleta, Chief, Wireless Bureau, Federal Communications 
Commission; and, finally, Edmond Thomas, Chief, Office of 
Engineering and Technology, Federal Communications Commission 
as well.
    And at this time I would invite you to stand; we will swear 
you in, as we swear all our witnesses in. If there is anyone 
else you think who has accompanied you that may need to respond 
to an answer, I would prefer they stand up now, even if they 
turn out not to be needed; at least this way we won't have to 
swear anyone else in. Is there anyone else that you would like 
sworn in? OK.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    And we will go as I called you.
    Excuse me, let me take care of the UCs. I ask unanimous 
consent that all members of the subcommittee be permitted to 
place an opening statement in the record and the record remain 
open for 3 days for that purpose. Without objection, so 
ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    And, again, we are going to put the opening statements that 
Members made at the previous hearing in as part of this 
hearing's record, and at this time we will just basically go 
right down the table there.
    Ms. Evans, you have the floor. You are going to need to put 
that mic much closer to you, as I was told to do. Excuse me. I 
have to practice what I preach.

STATEMENTS OF KAREN S. EVANS, ADMINISTRATOR OF E-GOVERNMENT AND 
 INFORMATION TECHNOLOGY, U.S. OFFICE OF MANAGEMENT AND BUDGET; 
   DR. DAVID BOYD, PROGRAM MANAGER, SAFECOM, WIRELESS PUBLIC 
SAFETY INTEROPERABLE COMMUNICATIONS PROGRAM, U.S. DEPARTMENT OF 
HOMELAND SECURITY; JOHN MORGAN, ASSISTANT DIRECTOR, SCIENCE AND 
TECHNOLOGY, NATIONAL INSTITUTE OF JUSTICE, ADVANCED GENERATION 
 INTEROPERABILITY LAW ENFORCEMENT [AGILE]; JOHN MULETA, CHIEF, 
WIRELESS BUREAU, FEDERAL COMMUNICATIONS COMMISSION; AND EDMOND 
 THOMAS, CHIEF, OFFICE OF ENGINEERING AND TECHNOLOGY, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Ms. Evans. Good morning, Chairman Shays, Chairman Putnam, 
and members of the committee. Thank you for inviting me to 
speak about communication challenges facing the first responder 
community. My remarks will focus on the administration's 
strategy and progress to date in working with State, local, and 
tribal governments and organizations to address these 
challenges to achieve interoperability.
    As you know, in the fall of 2001, OMB's E-Gov Task Force 
identified 24 Government-wide opportunities to simplify and 
consolidate redundant Federal programs. One of those 
opportunities was in the area of wireless communications and 
became the Project SAFECOM E-Gov initiative. Given the critical 
importance of improving communications among the first 
responder community, the President's Management Council 
identified SAFECOM as one of the top three priority E-Gov 
initiatives out of the 24.
    SAFECOM is a central part of the administration's strategy 
toward achieving the goal of improved interoperability among 
Federal, State, local, and tribal governments and 
organizations. Because over 90 percent of the Nation's public 
safety infrastructure is owned at the State and local level, 
SAFECOM was created to be a public safety practitioner-driven 
program. Its mission is to serve as the central point within 
the Federal Government to help public safety agencies across 
all levels of government to improve response through more 
effective and efficient wireless communications.
    As the umbrella program for all Federal interoperability 
efforts, SAFECOM has developed a strategy with both short-and 
long-term milestones to fulfill that mission. The Department of 
Homeland Security is the managing partner of this initiative. 
Additionally, there are six partner agencies: the Departments 
of Defense, Energy, Interior, Justice, Health and Human 
Services, and Agriculture. All of these agencies are involved 
because of significant roles they play in public safety 
communications, emergency incident response and management, and 
law enforcement.
    It is abundantly clear that in order for first responders 
and other public safety and law enforcement officials to 
effectively prevent, respond, and recover from disasters, 
whether their origin is natural or terrorist, they must be able 
to depend on interoperable communications. Unfortunately, until 
recently, each Federal agency had their own policies, 
standards, and equipment for the individual programs they 
administered. This problem was compounded at the State and 
local level as each public safety group used their own 
equipment, standards, and procedures. To address these and 
other barriers to achieving interoperability, SAFECOM will 
accomplish the following four items.
    The first item is the development of a national policy that 
promotes communications interoperability. SAFECOM is working 
within DHS and with its partners in the development of a 
national response plan, and the national incident management 
system is outlined in Homeland Security Presidential Directive 
No. 5. The goal of this directive is to enhance the ability of 
the United States to manage domestic incidences by establishing 
a single, comprehensive national incident management system. 
This effort is ongoing.
    A second task is the development of a common set of 
requirements for the public safety interoperable 
communications. SAFECOM is collaborating with the public safety 
community to identify their needs. Once completed, this uniform 
set of requirements will be used by public safety organizations 
and industry to ensure that the organization's own requirements 
and the overall need for interoperable communications are fully 
met. This effort is underway.
    A third SAFECOM activity will be the creation of standards 
that will provide a technical foundation for interoperable 
communications across the public safety community. SAFECOM and 
their State, local, and tribal partners are working with the 
National Institute of Standards and Technology to create 
standards for equipment, technology, and processes.
    Finally, SAFECOM, with its partners, will develop a 
national wireless communications architecture that brings 
together the policies, requirements, and standards activities I 
just mentioned. This architecture will provide a framework for 
implementing interoperable communication solutions across 
agencies and jurisdictions at all levels, while preventing any 
new and eliminating existing islands of interoperability and 
communication stovepipes.
    Successful achievement of those four activities clearly 
requires both inter-and intra-governmental collaboration. In 
addition to the Federal, State, local, and tribal partners 
already mentioned, both the Department of Justice Advanced 
Generation of Interoperability for Law Enforcement [AGILE] 
program and the Federal Communications Commission [FCC] play a 
critical role in this arena. SAFECOM and AGILE work together on 
a daily basis to make sure that tasks are coordinated and 
resources are used as effectively as possible. AGILE is a vital 
partner in the areas of standards development and outreach to 
the first responder community. The FCC has a critical role in 
solving the issue of limited ad fragmented spectrum, a barrier 
toward interoperability.
    In closing, I would like to emphasize the administration's 
commitment to continue to work collaboratively across Federal 
agencies with Congress and State and local and tribal 
governments to overcome the interoperability challenges facing 
the first responder community.
    While great strides have been made toward improving 
interoperability for our Nation's first responders, this is not 
a problem that can be solved overnight, or even in a year or 
two, but achievement of the SAFECOM goals will bring us much 
closer toward realizing interoperability. Collectively, we must 
continue to work toward developing a common set of requirements 
and standards for public safety communications.
    I look forward to working with the committee on our shared 
goals to achieve interoperability and realize effective and 
efficient first responder communications.
    [The prepared statement of Ms. Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.170
    
    [GRAPHIC] [TIFF OMITTED] T3427.171
    
    [GRAPHIC] [TIFF OMITTED] T3427.172
    
    [GRAPHIC] [TIFF OMITTED] T3427.173
    
    Mr. Shays. Thank you.
    Before going to Dr. Boyd, I would like to recognize Mr. 
Schrock for an expression of appreciation.
    Mr. Schrock. Thank you very much, Mr. Chairman.
    At the end of last hearing I learned that Ms. Valicenti is 
going to be leaving her job with the State of Kentucky, and I 
am sad about that, but after 6 years in that pressure cooker, 
she wants to go on and do other things. And I just want to tell 
her that we appreciate very much the times you have come here, 
the knowledge you have given us. You have been a great help to 
us, and I think I speak for everybody here when I say thank you 
for the job you have done, and we wish you luck in whatever 
endeavor you take on after that.
    Thank you.
    Mr. Shays. We will note for the record silent applause. 
Thank you.
    Dr. Boyd.
    Dr. Boyd. Good morning and thank you, Mr. Chairman and 
members of the subcommittee, for the invitation to speak to you 
today.
    While several programs have done important work in 
addressing interoperability, much of it has been disconnected, 
fragmented, and often conflicting. That is why SAFECOM was 
established as a high priority electronic government initiative 
to provide a national coordinating umbrella for Federal 
programs touching on interoperability. But SAFECOM is also a 
public safety practitioner-driven program with a customer base 
of over 44,000 local and State public agencies and more than 
100 Federal agencies engaged in public safety disciplines such 
as law enforcement, fire fighting, public health, and disaster 
recovery.
    Fixing the interoperability program will require a long-
term coordinated effort among local, State, and Federal 
stakeholders, and the sheer size and diversity of the public 
safety community and the billions of dollars invested in 
existing communication systems means we cannot start with a 
blank slate. Our solutions will have to include: backward 
compatibility with legacy systems to protect those investments; 
leveraging of advances in technology through research, 
development, and testing; and development of a well defined set 
of requirements for interoperability that can steer the 
development of reliable standards to guide industry as it 
creates solutions, and localities and States as they purchase 
them. But we need solutions quickly, so we have begun several 
near-term initiatives to begin moving us in the right 
direction, including innovative developmental projects, testing 
and evaluating of equipment, the pursuit of better spectrum 
management policies and technology, coordination of grant 
guidance across the Federal Government, and identification and 
promotion of best practices.
    In this last fiscal year, SAFECOM developed the Common 
Grant Guidance for use by Federal programs funding public 
safety communications equipment for State and local agencies. 
The COPS Office, FEMA, and the Office of Domestic Preparedness 
all incorporated this guidance into their public safety 
communications programs, thus producing the first multi-agency, 
multi-departmental coordinated approach to funding requirements 
for interoperability.
    With the AGILE Project, we also organized and funded the 
peer review process for the joint grant solicitation from COPS 
and FEMA, and with the National Institute of Science and 
Technology held a summit on interoperability as a critical 
first step in identifying all the Federal and national programs 
currently involved in public safety communications.
    This year we will complete the initial draft of the first 
Statement of Requirements for Public Safety Communications 
Interoperability. This Statement of Requirements will serve as 
the basis for SAFECOM's technology efforts. And about 2 weeks 
ago we issued a request for information to gather information 
from industry on current technologies to enhance 
interoperability that are either available now or under 
development, and we have begun collecting information on 
current technologies through vendor days.
    In our coordinating role, we are collaborating with the 
Department of Justice in the development of interoperability 
between Federal agencies and local public safety in 25 critical 
cities, and have begun discussions with the Department of 
Agriculture on a possible joint effort to explore radio over 
IP. We continue to support the Capital Area Wireless Integrated 
Network Demonstration project because it exhibits model 
governance structures and technology implementation for multi-
disciplinary and multi-jurisdictional data sharing, and because 
it offers an example of how to incorporate new technologies 
into emergency communication systems.
    And, finally, SAFECOM is developing an interoperability 
information portal to provide information to public safety 
agencies through an integrated central cite which will include, 
as one example, a scorecard tool that can be used to identify 
and track public safety progress on interoperable 
communications. Some of this effort leverages the work of the 
former Public Safety Wireless Network program now fully 
absorbed into SAFECOM.
    We believe we have made significant progress in 
establishing SAFECOM as the umbrella program for 
interoperability within the Federal Government, and gaining the 
confidence of the State and local public safety community who 
own and operate more than 90 percent of the Nation's public 
safety infrastructure, without whom this effort cannot succeed. 
We are, with all our partners, working toward a world where 
lives and property are never lost because public safety 
agencies cannot communicate. The bottom line? There are no 
simple solutions and no quick fixes, but the problem is not 
insoluble if we marshal our resources and work together.
    I would be happy to answer any questions.
    [The prepared statement of Dr. Boyd follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.174
    
    [GRAPHIC] [TIFF OMITTED] T3427.175
    
    [GRAPHIC] [TIFF OMITTED] T3427.176
    
    [GRAPHIC] [TIFF OMITTED] T3427.177
    
    [GRAPHIC] [TIFF OMITTED] T3427.178
    
    [GRAPHIC] [TIFF OMITTED] T3427.179
    
    [GRAPHIC] [TIFF OMITTED] T3427.180
    
    [GRAPHIC] [TIFF OMITTED] T3427.181
    
    [GRAPHIC] [TIFF OMITTED] T3427.182
    
    Mr. Shays. I am so grateful you stopped because we didn't 
hit the clock. It is the first time in my 16 years that I 
remember that not happening. You could have gone on forever, 
sir. So thank you very much.
    Dr. Morgan, you won't be so lucky. You are on.
    Dr. Morgan. Oh, well, I will try to keep to the 5 minutes.
    Good morning, Mr. Chairman, Mr. Clay, Mr. Kucinich, members 
of the subcommittees. I am John Morgan, Acting Assistant 
Director for Science and Technology of the National Institute 
of Justice. NIJ is the research, development, and evaluation 
arm of the Department of Justice and a component of the 
Department's Office of Justice Programs. I am pleased to appear 
before you today to discuss the history of NIJ's AGILE program, 
you have heard some of it already today, and to present current 
interoperability solutions and discuss research and development 
plans that can help the law enforcement and first responder 
communities develop long-term interoperability solutions.
    NIJ established the AGILE program to assist State and local 
law enforcement and public safety agencies in effectively and 
efficiently communicating with one another, using both voice 
and data, across agency and jurisdictional boundaries. AGILE 
accomplishes its mission through four main program components: 
supporting research and development of technology; testing, 
evaluating, and demonstrating technologies; developing 
technology standards; and educating and reaching out to public 
safety practitioners and policymakers. AGILE is helping bridge 
the gap in emergency communication by identifying, adopting, 
and developing interoperability solutions that include open 
architecture, not proprietary standards, for voice, data, 
image, and video communications systems.
    AGILE serves all of public safety, but is primarily focused 
on law enforcement's unique needs. For example, police in 
general care first and foremost about solutions for day-to-day 
operations in criminal justice problems. Such solutions, which 
use open architecture and support day-to-day needs, will also 
serve where multiple parties need to exchange information on 
the spot, at critical incidents.
    Much of AGILE's success can be attributed to its 
partnership with several of NIJ's regional technology centers, 
especially the Rocky Mountain and Northeast centers, and its 
partnership with the National Institute of Standards and 
Technology. These facilities have performed much of the work 
that you will hear about today and are included in the written 
testimony in more detail.
    AGILE actually dates back to the mid-1990's, actually under 
the able leadership and vision of Dr. Boyd, when he sat as the 
Director of the Office of Science and Technology within NIJ. 
The first system that NIJ pursued at that time was BORTAC, the 
Border Tactical Communications System, which connected the 
dispatch centers of 12 agencies operating in San Diego County, 
including the Border Patrol, INS, California Highway Patrol, 
San Diego Police Department, and others. BORTAC, which has 
actually been operational since 1996, demonstrated early on 
that overcoming institutional and cultural barriers in 
developing interoperable systems is often more important and 
more difficult than overcoming existing technical barriers. It 
actually took 2 years to bring everybody together on the same 
page about what to do at BORTAC and only 2 months to implement 
the technical solution.
    NIJ's interoperability projects portfolio grew after that 
to include many other interoperability research projects and 
data and information sharing projects such as InfoTech in 
southern Florida and COPLINK in Arizona, and the development of 
the leading standard that is helping to solve this problem 
right now, the P-25 digital wireless standard.
    In April 2002, NIJ convened NTFI. Again, you have heard 
about NTFI today from Marilyn Ward and others, and the staff 
has the summary pamphlet on the NTFI guide that came out of the 
convening of that group, ``Why Can't We Talk? Working Together 
to Bridge the Communication Gap to Save Lives,'' an excellent 
resource for those of you who want to see the major issues in 
interoperability and what public safety professionals have to 
say about it.
    NIJ has also developed a strong partnership between its 
AGILE program and the Wireless Public Safety Interoperable 
Communications program, the E-Gov initiative known as SAFECOM. 
AGILE's years of experience in the areas of technology research 
and development, standards development, and outreach and 
support to the public safety community and national 
associations enable it to assist SAFECOM in fulfilling its 
mission. In fact, as we talk today, AGILE technical 
representatives are working with SAFECOM on operational 
requirements in interoperability elsewhere in this town.
    To best integrate the respective programs, AGILE and 
SAFECOM have merged their planning in these areas of common 
interest. In order to meet the need for short-term 
interoperable solutions, NIJ has created a process to research, 
evaluate, test, and implement commercially available 
technologies, including the ACU-1000 and other communications 
switches. The ACU-1000 is actually operational right now in 
Alexandria, VA.
    Another area that we have been very, very much involved in 
and is a technology development area is software defined radio 
[SDR], which shows the breadth of the NIJ AGILE program. SDR 
technology replaces the internal hardware of a mobile radio 
system with flexible software and promises to provide portable 
radios that can adapt to many different radio environments. NIJ 
funded the development of a particularly innovative approach 
that accomplishes all of the radio's signal processing using a 
typical general purpose processor such as a Pentium chip. This 
approach has been demonstrated using a hand-held pocket PC to 
emulate a public safety radio, and we have successfully 
demonstrated the ability of this laboratory prototype to 
emulate a vast array of radio types across a wide range of 
frequencies and protocols.
    So what this is, members of the committee, is a PDA, a 
compact, pocket PC PDA, with an RF amplifier on the back, and 
this little device can emulate, for much less cost than the 
average radio, honestly, hundreds of different radio types, 
regardless of frequency and protocol, across a very, very wide 
range. This is something that I think going to be part of the 
solutions for public safety in the long run.
    NIJ isn't saying that this is the only solution. What we 
are trying to do is create a range of solutions that can be 
adapted to a wide range of environments across the pubic safety 
community.
    Mr. Shays. Just a quick question. Is that voice and text?
    Dr. Morgan. Yes.
    Mr. Shays. We need to have you wrap up here.
    Dr. Morgan. I will wrap that up. I wanted to show off my 
cool toy.
    And we are also, of course, working with public safety 
associations to provide for how such systems can be implemented 
in public safety and in a regulatory environment.
    I appreciate the committee's interest in this very, very 
vitally important area of interoperable communications.
    [The prepared statement of Dr. Morgan follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.183
    
    [GRAPHIC] [TIFF OMITTED] T3427.184
    
    [GRAPHIC] [TIFF OMITTED] T3427.185
    
    [GRAPHIC] [TIFF OMITTED] T3427.186
    
    [GRAPHIC] [TIFF OMITTED] T3427.187
    
    [GRAPHIC] [TIFF OMITTED] T3427.188
    
    [GRAPHIC] [TIFF OMITTED] T3427.189
    
    [GRAPHIC] [TIFF OMITTED] T3427.190
    
    [GRAPHIC] [TIFF OMITTED] T3427.191
    
    [GRAPHIC] [TIFF OMITTED] T3427.192
    
    [GRAPHIC] [TIFF OMITTED] T3427.193
    
    [GRAPHIC] [TIFF OMITTED] T3427.194
    
    Mr. Shays. Thank you, Dr. Morgan.
    Mr. Muleta.
    Mr. Muleta. Thank you.
    Good morning, Mr. Chairman and members of the subcommittee.
    Mr. Shays. I am going to have you pull the mic a little 
closer. We can hear you, but we would like to hear you better.
    Mr. Muleta. I was going to say can you hear me now, but 
that would favor one carrier over another.
    I want to start off by first recognizing Congressman 
Putnam. My early beginnings as an engineer was out in Brandon, 
FL, so I think we have something in common there.
    Mr. Shays. Was that when he was in junior high school?
    Mr. Muleta. I don't know. I don't know if he went to 
Brandon; he might have been Polk County.
    But I also want to recognize the fact that interoperability 
is demonstrated to me every morning when I drive in from 
Arlington on the way to my office in Washington, when I drive 
through the Pentagon area on the way to the 14th Street Bridge. 
There you see the Virginia State Police, the Arlington County 
Police, the DOD folks all trying to work together to make sure 
that the Defense Department, the Pentagon is safe, and I think 
that is a demonstration of the kind of interoperability that 
needs to take place.
    What my talk today will describe is how the FCC and my 
bureau in particular are facilitating interoperability and 
effective public safety communications.
    Mr. Shays. You can move that mic about 2 inches back and we 
will be fine. No, I like hearing someone like I am hearing you, 
so thank you.
    Mr. Muleta. All right.
    I will also touch upon the three critical issues that drive 
interoperability and effective use of public safety spectrum. 
These are the need for local, State, and Federal planning 
coordination; the need for public safety systems to take 
advantage of the latest technology; and, three, the financial 
infrastructure to help address the coordination and technology 
adoption issues. Under the able leadership of Chairman Michael 
Powell, the Commission has systematically addressed and will 
continue to address these issues.
    My dear colleague, Ed Thomas, will describe the issues 
related to public safety interference issues and the potential 
solution, so my focus will be on the activities of the Bureau 
to develop a network of effective public safety systems. We are 
doing that while being cognizant of the varying needs and 
interests of more than 40,000 different public safety entities 
in the country.
    First of all, I do want to assure the members of the 
subcommittee that we place the highest priority on public 
safety issues, and these issues not include the public safety 
radio system, but also the integration of critical 
infrastructure industries and a seamless nationwide E-911 
system into a national homeland security and safety system.
    Our commitment is exemplified by the dedication and hard 
work of the over 90 people that we have working in our Public 
Safety and Private Wireless Division. These lawyers, engineers, 
and analysts process over 400,000 different license 
applications, transfers, and requests for special temporary 
authority, and they also deal with the highly complicated legal 
and regulatory issues that are presented by public safety radio 
operations.
    In addition, we work closely with other offices and Bureaus 
in the Commission, including the Homeland Security Policy 
Council, which was created under the direction and leadership 
of Chairman Powell. It is through this interdisciplinary 
council that we are able to coordinate our activities with 
other Federal, State, and local authorities in order to put in 
place measures that protect our country's telecommunications, 
broadcasts, and other communications, infrastructures, and 
facilities from adverse attacks.
    In terms of planning and coordination in greater 
interoperability, the FCC has been active in promoting better 
coordination between different public safety entities. The FCC 
first explored a national and regional planning approach for 
public safety spectrum in the 1980's as an alternative to the 
traditional first come, first served licensing approach. It was 
during this process that service rules and technical standards 
were adopted to govern a dedicated 6 megahertz of public safety 
spectrum in the 800 megahertz band. Most importantly during 
this process, the Commission designated five channels 
nationwide for mutual aid cooperation and communication.
    As part of the planning process, there were 55 regional 
planning committees, broken down along State lines, to develop 
regional plans tailored to the particular public safety 
communication needs of each region. This same regional planning 
process was also adopted and used as a model for the 700 
megahertz public safety band plan. We chartered the Public 
Safety National Coordination Committee, the NCC, in 1999 to 
solicit input from the public safety community in further 
development of rules for the use of this technology. Its final 
recommendations were submitted to us this past summer and will 
lead to the development of service rules and regulation that 
will lead to greater interoperability in the 700 megahertz 
public safety band.
    We are also excited about the growing potential for 
introducing technology that will lead to innovative public 
safety uses. For example, the recently adopted service rules 
for the 4.9 gigahertz band accommodate new applications for 
broadband mobile operations in the use of fixed hot spots.
    We also continue to pursue a flexible licensing regime in 
the public safety arena and encourage optimal public safety 
communications and interoperability. For example, licensees in 
the 4.9 gigahertz band, public safety licensees, are permitted 
and encouraged to enter sharing agreements or strategic 
partnerships with both traditional public safety entities, 
Federal Government agencies, and non-public safety entities 
such as critical infrastructure industries, power and utility 
companies.
    Two remaining challenges relate to funding and leveraging 
technology to the benefit of public safety. These issues are 
related, and we continue to have an open dialog with the public 
safety community and other interested stakeholders, including 
equipment manufacturers, critical infrastructure industries, 
and the commercial service providers. The creation of more 
public and private partnership is one potential solution to the 
funding and technology issue. Better spectrum management is 
also a key issue to address these concerns.
    The 800 megahertz interference proceeding is yet another 
example where the FCC must address the three challenges of 
planning and coordination, technology, and funding to solve the 
problem. In addressing the problem, I do want to assure you 
that we are conducting our examination of potential solutions 
with the following priorities in mind. One is to address the 
interference issues for public safety first and foremost. 
Second, we want to adapt a spectrum plan that provides 
certainty to all the licensees in the band. And, third, we want 
to treat all of the affected licensees equitably as we move to 
an effective solution.
    In conclusion, I want to reaffirm that the FCC views as one 
of its highest responsibilities the public safety community. 
The Commission has been and will continue to be sensitive to 
the need of this community by making spectrum available for its 
use when necessary, by protecting it from interference, and by 
enabling new technologies to aid it in its mission.
    Thank you again for your invitation to testify on this 
important and timely subject. Thank you.
    [The prepared statement of Mr. Muleta follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.195
    
    [GRAPHIC] [TIFF OMITTED] T3427.196
    
    [GRAPHIC] [TIFF OMITTED] T3427.197
    
    [GRAPHIC] [TIFF OMITTED] T3427.198
    
    [GRAPHIC] [TIFF OMITTED] T3427.199
    
    [GRAPHIC] [TIFF OMITTED] T3427.200
    
    [GRAPHIC] [TIFF OMITTED] T3427.201
    
    [GRAPHIC] [TIFF OMITTED] T3427.202
    
    [GRAPHIC] [TIFF OMITTED] T3427.203
    
    [GRAPHIC] [TIFF OMITTED] T3427.204
    
    [GRAPHIC] [TIFF OMITTED] T3427.205
    
    [GRAPHIC] [TIFF OMITTED] T3427.206
    
    [GRAPHIC] [TIFF OMITTED] T3427.207
    
    [GRAPHIC] [TIFF OMITTED] T3427.208
    
    [GRAPHIC] [TIFF OMITTED] T3427.209
    
    [GRAPHIC] [TIFF OMITTED] T3427.210
    
    [GRAPHIC] [TIFF OMITTED] T3427.211
    
    [GRAPHIC] [TIFF OMITTED] T3427.212
    
    [GRAPHIC] [TIFF OMITTED] T3427.213
    
    [GRAPHIC] [TIFF OMITTED] T3427.214
    
    [GRAPHIC] [TIFF OMITTED] T3427.215
    
    [GRAPHIC] [TIFF OMITTED] T3427.216
    
    [GRAPHIC] [TIFF OMITTED] T3427.217
    
    [GRAPHIC] [TIFF OMITTED] T3427.218
    
    [GRAPHIC] [TIFF OMITTED] T3427.219
    
    Mr. Shays. Thank you very much.
    Mr. Thomas.
    And then we will go to questions with Mr. Putnam first, and 
we are going to do 8 minute rounds of questions, and then we 
may have a second. We need to be done by 1.
    Thank you.
    Mr. Thomas.
    Mr. Thomas. Good morning, Mr. Chairman and members of the 
subcommittee. It is a great pleasure to appear before you to 
discuss the critical issues regarding public safety. Public 
safety has been one of the Commission's highest priorities for 
many years. Today I will be discussing the role of the Office 
of Engineering and Technology in ensuring that public safety 
and other first responders have the spectrum and technology 
resources necessary to meet their critical needs.
    I serve as the Commission's Chief Engineer. Among other 
things, my office is responsible for spectrum allocation and 
technical analysis. Today I will be discussing public safety 
spectrum allocation and how the Commission is addressing 
certain recent interference concerns in the 800 megahertz band.
    To put matters in perspective, the Commission has allocated 
97 megahertz of spectrum to public safety in 10 different 
bands. Therefore, in a typical metropolitan area, there are 
over 1,000 potential channels available to public safety for 
voice communication. In some of the largest metropolitan areas 
there are even more, since the Commission has authorized up to 
an additional 18 megahertz in these areas.
    In addition, in the last few years the Commission has taken 
further steps to allocate new spectrum for public safety use. 
The Commission recently made available 50 megahertz of spectrum 
at 4.9 gigahertz. The rules adopted for 4.9 band are intended 
to accommodate a variety of new broadband applications such as 
high speed data and video.
    The Commission has also allocated 24 megahertz of spectrum 
in the portion of the 700 megahertz band that has been 
recovered as part of the digital TV transition. A band plan for 
this 24 megahertz has been developed in conjunction with the 
public safety community and, among other things, it sets aside 
significant amount of spectrum for interoperability and future 
uses.
    Interoperability has been a critical issue for the 
Commission for many years. Frequencies have been set aside for 
interoperability at 150 megahertz, at 450 megahertz, at 700 
megahertz, and at 800 megahertz. To ensure improved 
interoperability for public safety operations, as of January 1, 
2005, the Commission will require newly certified public safety 
radios to operate on a nationwide safety interoperable calling 
channel in the band in which the radio operates.
    Along with allocation issues, the Commission has also been 
actively addressing interference to public safety operations. 
Recently, the most significant interference issue has arisen in 
the 800 megahertz band. In March 2002, the Commission began the 
process of developing a public record for seeking comment as to 
what additional steps we should take to help resolve the 
interference problem. I think it is an understatement to say 
that the response has been robust. Parties have engaged in 
extensive discussions of the proposals and have submitted 
numerous different plans to reduce interference. For example, 
last year Nextel joined a group of public safety and private 
radio organizations to submit a relocation plan that was called 
a consensus plan. Others joined together and filed an 
opposition to the plan.
    Presently, the Commission staff is diligently analyzing the 
proposals before it. The public record is comprehensive, 
contradictory, and complex. We are committed to resolving this 
public safety interference problem as quickly as humanly 
possible.
    On another front, the Commission is moving forward to 
enable and encourage development of new technologies that hold 
promise for public safety use. Ultra wideband technology is one 
example. The most relevant application of ultra wideband 
technology for public safety is imaging. For example, in 
hostage situations, through-the-wall imaging systems can be 
used to pinpoint the location and movement of persons within a 
building. Similarly, a ground penetrating radar system can be 
used to locate buried objects or underground faults.
    The Commission is also actively pursuing the public safety 
potential of cognitive radio technology or software-defined 
radios, which holds tremendous promise in the area of 
interoperability and interference rejection or avoidance. For 
instance, during an emergency, these radios will have the 
capability to configure themselves for interoperable use and 
adjust automatically to avoid interference.
    Mr. Chairman and Members, allow me to end as I have begun. 
The Commission views its responsibility in the public safety 
arena as one of its highest responsibilities. The Commission 
has been and will continue to be sensitive to the needs of that 
community by making spectrum available to it when necessary, by 
protecting it from interference, and by enabling new 
technologies to facilitate the completion of its mission.
    Thank you for the opportunity of addressing the 
subcommittee.
    Mr. Shays. Thank you very much.
    The Chair will recognize Mr. Putnam for 8 minutes and all 
Members for 8 minutes. We will then go to Mr. Clay.
    I want to just point out my biggest fear is I feel that 
when everyone is in charge, no one is in charge, and so, in the 
end, I am going to be very eager to know who is going to take 
ownership.
    Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. You have given me a 
perfect lead-in. My committee's jurisdictional role here is 
mostly related to the fact that this is an E-Gov initiative, 
which is Ms. Bailey's bailiwick; SAFECOM is a homeland security 
initiative, which is Dr. Boyd's bailiwick; Dr. Morgan has 
presented the AGILE program through Justice; and then, of 
course, the underlying spectrum issues are FCC. So what or who 
is coordinating all of the key Federal stakeholders to make 
sure that we have one streamlined SAFECOM program and that we 
avoid the duplication of efforts that has been the frustration 
so eloquently presented by our first panel?
    Well, I am not sure who should answer it. Who is in charge? 
Does Dr. Morgan report to Dr. Boyd, since Dr. Boyd runs the 
SAFECOM program?
    Dr. Morgan. Well, with respect to interoperability, it is 
the settled position of the National Institute of Justice that 
SAFECOM is the primary coordinator of all activities in that 
area, and the AGILE program, as a result, has worked very 
diligently to coordinate all of its activities with SAFECOM on 
a daily basis. When we do our planning and program review in 
December for the AGILE program, we are doing it jointly with 
SAFECOM so that everything that we are doing is vetted through 
that effort and everything is coordinated with that effort. And 
so we feel that we have a very unique role because of our 
history, our technical expertise within our center system, and 
our focus on law enforcement, but we also feel that it is very 
important to coordinate with SAFECOM as well.
    Mr. Putnam. And have them play the lead in this area. So 
Dr. Boyd is the lead agency.
    Dr. Morgan. Yes.
    Mr. Putnam. And AGILE reports to Dr. Boyd.
    Dr. Boyd. There obviously is a formal legal structure that 
has to do with direct reporting. What I can tell you is that we 
cooperate to the extent that we talked about what we were going 
to say in the testimony and how we would relate those things. 
We participate actively in progress reviews within AGILE; we 
have participated in the development of those programs. This, 
in fact, extends across not just AGILE and SAFECOM, but well 
beyond that. So, for example, when the interoperability grants 
which were authorized by Congress in 2003 were awarded roughly 
$75 million in FEMA and $75 million in COPS--COPS, of course, 
in Justice and FEMA in DHS, we also worked actively with both 
of those agencies to develop the Common Grant Guidance which 
they then used as part of that solicitation. And we have worked 
directly with the Office of Domestic Preparedness, so that the 
SAFECOM guidance is incorporated in their program as well. To 
give you an idea of the level of coordination, AGILE was tasked 
with developing the common performance template they were going 
to use to collect the data, so we could see how well the FEMA 
and COPS grants were actually accomplishing interoperability, 
and we even participated again with the AGILE program in 
developing the peer review process that supported both the FEMA 
and the COPS selections.
    We have created a Federal coordination council, in fact, 
which includes not just the funding partners, but also includes 
all of those other activities that are providing grants that 
touch on interoperability. In fact, we have had meetings 
already in the last couple of months and we will have more 
meetings in the next couple of months as we begin to work 
through these things.
    Mr. Putnam. If I am a police chief working on 
interoperability issues, do I call Karen Evans at OMB, who is 
Director of E-Gov Initiatives; do I call Dr. Boyd with SAFECOM; 
do I call Dr. Morgan with AGILE; or do I call the FCC?
    Dr. Boyd. If you call any of the three of us, it is going 
to wind up in my office, and we will coordinate the response 
back. In fact, we have a staff for that. As we tell chiefs 
right now, one of the quickest ways if you want an answer in a 
hurry is to just send a message to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c5f4d4a494f43416c48445f024b435a">[email&#160;protected]</a> and we will 
respond, and then we will coordinate whether it is AGILE that 
needs to be involved in that activity or we will advise them if 
we think they need to refer it to the FCC or others.
    Mr. Putnam. So these marketing materials, what is on this? 
We just received this from AGILE.
    Dr. Morgan. As I alluded to in the testimony, AGILE has a 
very wide range of work that it has done I standards 
development and research and development, test and evaluation, 
such as the AC-1000 switch in Alexandria. What this CD contains 
is a very wide range of documents and publications that can be 
accessed by everyone from policymakers right down to the 
technical people who are trying to implement these illusions. 
And so this AGILE Resource CD is something that we give out 
broadly at public safety associations and to people who are 
calling to determine what best solutions fit into their local 
environment, and so on. So it is a very wide range of 
publications and knowledge, and I would say it captures the 
vast majority of the knowledge that has been gained through the 
AGILE program over the last decade.
    Mr. Putnam. Well, let me ask what apparently is probably a 
delicate question. In creating the Department of Homeland 
Security, we ruffled a lot of features because we moved some 
serious agencies around. I mean, we dislocated Coast Guard out 
of Transportation, which was a huge deal; we moved Secret 
Service around; we did all these things. Is AGILE best located 
in the Department of Homeland Security, considering the 
overlapping role?
    Dr. Morgan. Well, first of all, I think that AGILE and 
SAFECOM have a very strong working relationship, and if it 
ain't broke, don't fix it is the first part of it.
    Mr. Putnam. That is what people said before we passed the 
Homeland Security bill.
    Dr. Morgan. The other issue I would say is that law 
enforcement has some problems with respect to day-to-day 
communications that we don't want to get subsumed in the 
overall public safety environment. In this city every day, not 
every day, but this year in this city there will be over 300 
murders. There is a criminal justice mission that is separate 
from the Homeland Security mission, and a criminal justice 
mission that is very serious and important in this country; 
and, honestly, the investments that are necessary in building 
technology for criminal justice are extremely important and 
oftentimes overlooked. NIJ is focused on local law enforcement, 
and I think we are working very well with SAFECOM.
    Mr. Putnam. Ms. Evans, what is your role in this?
    Ms. Evans. As the Administrator for E-Government and IT, it 
is my role to ensure that, and facilitate the cooperation and 
the coordination that has been demonstrated today. 
Additionally, what is also important in my role is that 
investments that are in the Federal space that are providing 
this service are done wisely and that meet the goals. So it is 
the administration's viewpoint that SAFECOM is the umbrella 
program for the Federal Government, and that we are working to 
ensure that all the Federal Government investments in this 
space are working through the SAFECOM to ensure that the 
standards, once the standards are established and that the 
architecture and those types of issues are there, that all the 
Federal investments those requirements.
    Mr. Putnam. Is there a plan somewhere that has short-and 
long-term milestones for SAFECOM's progress?
    Ms. Evans. Yes, sir, there is. And we are also in the 
process of reviewing the plan again to ensure that we are 
keeping to 10 percent of the performance and schedule and 
budget. And as we move through the fiscal year 2004 budget 
cycle, it is our intention at the end of this to ensure that 
there is great visibility into all of the projects, not just 
the SAFECOM project, but all E-Gov projects so that question 
will be answered and that information will be available.
    Mr. Putnam. Mr. Chairman, am I out of time? Thank you.
    Thank you very much. I thank the witnesses.
    Mr. Shays. Thank you. I said 2 minutes, but it had been 
about a minute and 20 seconds. I am sorry.
    At this time I recognize Mr. Clay. I asked Mr. Clay, now 
that the two of you are working instead of the two of us, if he 
had been a bad influence on you, and he said, I hope so.
    Mr. Clay, you have the floor.
    Mr. Clay. Thank you, Mr. Chairman. And we work together 
well.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T3427.165
    
    [GRAPHIC] [TIFF OMITTED] T3427.166
    
    Mr. Clay. I guess this is directed to the FCC witnesses. 
Councilwoman Praisner has suggested that the money from the 
spectrum auctions be used to support local first responders. 
This is a two-part question. First, please tell me where the 
money from past auctions has gone and, second, what do you 
think of the councilwoman's proposal? Either one, Mr. Thomas or 
Mr. Muleta can attempt to answer that.
    Mr. Muleta. Thank you. The first question is where has 
auctions money gone? The auctions are designed to assign 
licenses between mutually exclusive licensees, and the moneys 
paid to that go directly to the Treasury. So that is one 
answer.
    Your second question is what we think about the proposal. 
Generally, we defer to the legislatures on their initiatives. 
You know, that is something that is sort of in the purview of 
Congress as to whether that is an appropriate solution for the 
funding issues. I do recognize there are funding issues for 
first responders, and it is a very complex problem that needs 
to be tackled. There are over 40,000 public safety systems 
nationwide, and coordinating the funding structure for all of 
them and just the communication among all of them on the 
coordination issue is an important aspect of this. Thank you.
    Mr. Clay. Has the FCC weighed in in any way on this 
proposal that the councilwoman has offered up?
    Mr. Muleta. My general understanding is that we do not 
comment on legislative initiatives; that is not under our 
purview.
    Mr. Clay. OK, thank you, Mr. Muleta.
    Let me ask Dr. Boyd what requirements is the Department of 
Homeland Security putting on grants to first responders, and do 
you require that governments develop plans for 
interoperability?
    Dr. Boyd. I think there are two answers to that. The first 
one is that in this last year, as we developed the guidance, 
we, in some cases, shoehorned the guidance in what the existing 
legislation said because every program wasn't driven under 
exactly the same set of rules, so we had to make some 
adjustments for that. But, in fact, we have worked with what is 
called the Consortium for the Improvement of Public Safety 
Communications, which is an organization made up of all of the 
major public safety organizations: the International 
Association of Fire Chiefs, Chiefs of Police, Major City 
Chiefs, Major City Sheriffs, the Association of Public Safety 
Communications Officers. Working with them, we developed the 
Common Grant Guidance, which then became part of the criteria 
that was used both in asking that they complete the 
applications in a way that addressed that guidance and then was 
used as part of the criteria in deciding how they were going to 
be selected, and that included a number of things. Where 
appropriate, for example, it strongly encouraged the use of P-
25. P-25, as you know, is a standard which addresses digital 
trunk radio systems. And in each instance it looked largely for 
cross-jurisdictional, cross-disciplinary kinds of partnerships 
that addressed specifically the interoperability problem.
    Mr. Clay. Thank you for that response.
    And tell me which agency is responsible for communicating 
with the local officials. Whose responsibility is that?
    Dr. Boyd. Obviously, we would hope that local agencies 
would have access to any agency that they needed help from. 
Within the interoperability community we have been very 
proactive in going out and creating a structure that doesn't 
just allow occasional communication when they want to talk to 
us but, in fact, fosters an ongoing dialog. And so we have both 
an executive committee and an advisory committee structure 
which is built around the public safety community and around 
public officials so that, for example, as you heard in the 
earlier panel in your earlier hearing, Marilyn Praisner, 
Marilyn Ward and others are part of the SAFECOM system and, in 
fact, we meet with them. Eventually we will meet with them 
quarterly; right now we are meeting about every 4 to 6 weeks, 
as we put the foundations in place to do the things we think we 
need to.
    Mr. Clay. OK. Will SAFECOM be a one-stop shopping place for 
local governments who are trying to solve problems of 
interoperability?
    Dr. Boyd. That is in fact the focus, that we would be not 
necessarily the sole place that would do that. AGILE is an R&D 
activity; we would anticipate that COPS and others would do 
that. But what we do see SAFECOM's role as is a place that you 
can go to in a one-stop basis and we will make the connections, 
so that instead of the local agency having to know that they 
need to talk to the COPS Office or to ODP to get the kind of 
training and technical assistance they need, they can come to 
SAFECOM and we will link them with the right folks.
    Mr. Clay. OK, any other panelists want to contribute? Ms. 
Evans.
    Ms. Evans. The one thing that I would like to point out is 
on the 24 E-Gov initiatives there is another initiative. 
Although we talk about them separate, they are going forward to 
ensure that there is coordination among those. And, of course, 
there is one which is grants.gov. And so the opportunities that 
you are talking about that are related to grants and how the 
grants go forward, there are opportunities there that we, as 
the administration, ensure that those opportunities then are 
coordinated between these initiatives to ensure that if they 
went to grants.gov to find out what opportunities were 
available to them, they would also then, if they were 
specifically interested in interoperability wireless types of 
opportunities, that would then be linked to the SAFECOM 
project.
    Mr. Clay. All right. Well, I thank the panel for their 
answers.
    And in the interest of time, Mr. Chairman, I will yield 
back the balance of mine.
    Mr. Shays. I thank the gentleman.
    At this time we will recognize Mr. Schrock for 8 minutes.
    Mr. Schrock. Thank you, Mr. Chairman. Before we start, I 
notice the members of the first panel are here, and I am 
wondering if you all have copies of that.
    Mr. Shays. We will note for the record nodding of heads.
    Mr. Schrock. Appropriate nodding.
    I am sorry you guys weren't here for the first panel, but 
some of the testimony they had was amazing, especially some of 
the comments that were made by Congresswoman Jane Harman from 
California about this issue as it related to the California 
fires that, unfortunately, they are still engaged in. And she 
said if they had some of these systems in place, firefighters 
in California could have had real-time tracking maps to show 
progress of the fires, locations of other firefighters, 
critical infrastructures, blueprint layouts, etc.
    And then probably the most compelling statement of all the 
testimony came from Marilyn Ward, who said in here 
interoperability has been brought to the forefront by disasters 
such as the Air Florida plane crash here in D.C. on the 14th 
Street Bridge. I don't know how many of you remember that. That 
was 21 years ago. Twenty-one years ago, and we are still 
discussing this subject. So clearly something has to be done.
    Let me followup on something that I am not sure I got a 
complete answer to what Mr. Putnam was asking and I gather, Dr. 
Boyd, you have taken possession of responsibility, that is the 
way I figured it, so I guess I am going to aim this at you. Who 
has the sole responsibility for creating and facilitating these 
standards on a Federal-to-Federal basis, Federal-to-Federal 
interoperability, Federal-to-State, State-to-local, and 
regional? I am not sure. Maybe I was fiddling with my papers 
and didn't hear you answer that, but who has that 
responsibility?
    Dr. Boyd. I don't think you missed it; I am not sure that 
we addressed that specifically. But, in fact, standards is a 
key component of what we are trying to do in SAFECOM, and it is 
standards at all of the levels. And, in fact, the instrument 
that we are using to help do that is the Office of Law 
Enforcement Standards of the National Institute of Standards 
and Technology, and that has been a partnership that has 
existed for a long time that started, in fact, before even I 
was in the Office of Science and Technology, and that entails 
working at all of the levels together.
    We don't believe that there is a separate set of Federal 
interoperability standards and a separate set of State 
standards and a separate set of local standards; we think they 
need to be a common set of standards.
    Mr. Schrock. I agree.
    Dr. Boyd. And so the approach that we are using working 
with the National Institute of Standards and Technology 
involves a number of pieces. One of the first pieces, and it 
has been an interesting challenge, is who are all the players 
in this community. So some months ago, in May or June, as I 
recall, we asked the National Institute of Standards and 
Technology to convene a summit to invite in all of the Federal 
and national organizations that had some role in 
interoperability so that we could create what amounted to a 
catalog of all the players so we could figure out who ought to 
be involved with us in doing this and who ought to be involved 
in the standards process. That resulted in that catalog. In 
fact, there is a report to that effect and it is on a Web site.
    Mr. Schrock. Who should it be?
    Dr. Boyd. I am sorry?
    Mr. Schrock. Who should that person be? For instance, on 
our recent panel we just had Ms. Valicenti. She is the head of 
the National Chief Information Officers, but she also runs the 
Kentucky one. Is it somebody like Mrs. Valicenti that should be 
doing this? Should it be one person at the State level, one 
State person for each of the States doing this?
    Dr. Boyd. Clearly she is one of the people that we need to 
have involved in this, and, in fact, each of the States has its 
own structure and we work with whatever that State structure 
is. To be very frank, in order to make interoperability work at 
any level, what is most essential to begin with, whether it is 
at a county level or State level at the Federal level, is the 
creation of a governance structure that gives everybody in it 
at every level a stake in playing a role; and they have to feel 
credibly that they are at the table, that they have a role, 
that they are not just there, that they actually are helping to 
steer it and helping to shape it.
    Mr. Schrock. Now, are they at the table?
    Dr. Boyd. They are in SAFECOM.
    Mr. Schrock. They are, OK.
    Dr. Boyd. Yes, sir.
    Mr. Schrock. All right, that is good.
    You threw me off there, I was thinking of something else. 
Let me think here a minute.
    Does the DHS and SAFECOM have the overall lead 
responsibility for coordinating Federal efforts to assist State 
and local governments, address barriers to interoperability? In 
the area where I live, I represent Virginia Beach and Norfolk. 
We just had a fairly bad hurricane come through there, and 
because of what we have done over the last couple of years, by 
proving moneys so all the localities have the same kind of 
equipment, you would be amazed. I rode with the police for 24 
hours; they could talk to anybody in the area. But that is just 
our area; that isn't even Richmond or northern Virginia or the 
State.
    I just wonder does DHS have the authority they need to make 
all this happen.
    Dr. Boyd. When we began to develop the SAFECOM strategy, 
and we actually have five components of it, one of those 
critical components was identifying what the barriers are, and 
we actually called it that, said the barriers; what creates the 
problem. And in that list there are more things that are both 
human and cultural and policy than there are that are 
technical. To be very frank, the technologies that could make 
this happen exist but have not been largely employed, have not 
been put into place in most cases.
    Mr. Schrock. Why?
    Dr. Boyd. For many of the same reason that BORTAC, which we 
began actually back in 1993, took 2 years to get people to 
agree on what the protocols would be, on what the language 
would be, on who would control the decision on who you talk to. 
When you can actually develop a regional system like the one 
you just spoke of or what is happening under the Capital 
Wireless Integrated Network, what happened in SAFECOM or under 
BORTAC in San Diego, then you begin, I think, to begin the kind 
of movement that we eventually have to spread across the 
country.
    I am not going to try to tell you that we have been 
successful in all the regions yet in communicating that piece 
of it, but that is a critical part, I think, of the national 
leadership, is to help local activities and demonstrate by 
taking examples like the Virginia Beach example, like some of 
the examples in Chicago, in South Dakota and other places and 
say, look, here are places where it not only worked, it paid 
huge dividends for those agencies who were involved, and you 
didn't lose control, you didn't lose the ability to communicate 
the way you needed to.
    Mr. Schrock. Do you think it is local politics that is 
getting in the way of some of this? Everybody has their own way 
of doing things and change is hard for people to accept, or 
what?
    Dr. Boyd. I think I would be inclined to agree, that human 
nature is always going to be an element of this.
    Dr. Morgan. It is a natural outgrowth of the Federal 
system. I mean, we have thousands and thousands of independent 
public safety agencies out there because that is the way the 
founding fathers established the Constitution in their wisdom 
and, as a result, it is not necessarily a problem that the 
Federal Government can easily come in and say, all right, here 
is the solution and everybody adopt it. That wouldn't be 
appropriate. The best thing to do is to give them standards 
they can operate to, have the money that is put out from the 
Federal Government adhere to those standards, and provide 
technical assistance so that they will be able to implement 
systems.
    Mr. Schrock. When I was in the State senate I thought, if 
the Federal Government told us to do anything, mind your own 
business, we're meddling, you know, frankly. And I was always 
one to say that people at the local level know how to handle 
their business better. But I think when you are dealing with an 
issue like this and we are dealing with terror, there has to be 
a basic framework from which everybody works; and I think we 
talked about that in the last panel. And unless we have that, 
you know, unless people are able to agree to that, we are never 
going to come up with a solution.
    My gosh, is my 8 minutes up already?
    Mr. Shays. Keep going.
    Mr. Schrock. OK.
    I want to ask Ms. Evans something. In fact, Ms. Evans, you 
are new in your current job, aren't you? I met with her on 
another issue the other day and enjoyed that, and I was 
surprised to see her here. What has the OMB done to promote 
better management of public safety spectrum issues in Federal 
departments, and do you all have the money available to do this 
effectively?
    Ms. Evans. Currently what OMB is doing, what the 
administration is doing is really working through the SAFECOM 
initiative, and the SAFECOM initiative is our umbrella program 
to ensure that the Federal resources in this area are directed 
to support the overall need of what we have been talking about 
and to ensure that partnership occurs.
    Additionally, dealing with the spectrum issue, the 
administration has launched an initiative which is underway 
under the leadership of the Department of Commerce that is 
looking at the spectrum issue overall. That task force work is 
ongoing and Commerce is the lead on that to address some of the 
other issues that we are talking about as far as spectrum and 
spectrum usage and spectrum management.
    Mr. Schrock. Are all the other agencies as engaged as 
Commerce, for instance, and do they have the funding to do this 
as well?
    Ms. Evans. All the agencies are engaged in this, this task 
force that is going forward that is supposed to provide a 
recommendation to the President of how we can move forward to 
address the spectrum issue. That report and that task force is 
ongoing, so as that evolves we would be glad to come back to 
the committee and tell you how that work is going on.
    As far as the funding issue, we continuously look at that, 
and as we are going through the 2005 cycle, we are addressing 
and looking at those issues to ensure that as we move forward, 
projects such as SAFECOM do have the funding that they need in 
order to move forward to achieve the results.
    Mr. Schrock. What is the next step to get this done? What 
do we need to do to get this done? And if it means we in 
Congress have to do something to step up to the plate and do 
it, I think we need to do it, and the quicker the better, 
because the folks who appeared before you have been here before 
and I think they are frustrated that not much is happening, and 
it looks to me like the problems that exist probably exist 
right here on Capitol Hill. We have to try to help resolve 
this. And I understand every time we pass a bill or do 
anything, more people's rights are taken away, but we are in a 
war right now, and I certainly don't want it to come to our 
homeland anymore. What is the next step? What do you think we 
need to do to get this done and get it done quickly?
    I am asking all of you that.
    Dr. Boyd. In SAFECOM, in fact, we have identified a list of 
things that we think we need to do, and, in fact, 2 or 3 weeks 
ago we brought that before another joint committee, in fact, I 
believe the chairman was at that session, and in it we pointed 
out that one of the critical things we needed was a governance 
structure that means that everybody that actually plays has a 
stake in it, has a role, and has a voice, so that it is both 
credible and it begins to get at those human issues you raised 
earlier.
    The second one is the development for the first time of a 
genuine Statement of Requirements. What exactly do we need in 
interoperability; what level of interoperability, for what 
purpose, and what ought to be the rules that surround it.
    Mr. Schrock. Who is going to create those rules?
    Dr. Boyd. We are doing that right now.
    Mr. Schrock. So you have ownership of that.
    Dr. Boyd. That is correct. In fact, this afternoon I will 
be in reviewing the draft Statement of Requirements.
    Mr. Schrock. Oh, good.
    Dr. Boyd. The third thing we then need is the development 
of common guidance, grant guidance, which we have done, we are 
going to continue to refine that, out of which, with the 
Statement of Requirements and the guidance, we then hope to 
come up with a suite of standards. Now, these aren't 
necessarily going to be all new standards; there are standards, 
in fact, that are useful in a variety of areas that we will 
want to adopt. What we want to do is create a package of 
standards, and then create standards where holes exist, is what 
we call a standards gap analysis, and then use those standards 
both to help guide industry in what they ought to be producing 
for us and to help guide State and local activities, and even 
Federal activities, when they go to buy the equipment.
    And then the last piece, the last crucial piece that we 
think needs to be applied here is some serious technical 
assistance. As you are well aware, most local jurisdictions 
don't have scientists or engineers or technicians as part of 
their public safety staff, and we need to provide them an 
objective capability through the system to do that, and so 
activities are being put together by the Office of Domestic 
Preparedness, by the AGILE program and the center system, and 
in some of the holes by SAFECOM so that we can begin to provide 
that objective assistance and they don't have to depend solely 
on vendors for the information, but can get broad, 
disinterested advice.
    Mr. Schrock. I agree with everything you said. I just hope 
we can keep the standards and the rules and the regulations and 
the process simple so that the localities will be able to 
implement it easily and that there is the least amount of man-
hours possible and the least amount of cost, because cost is 
everything right now at the localities, they are all screaming 
about it, they sure are in the district I represent, and I 
think the sooner we get this done the better.
    I thank you all for coming here.
    And I have no further questions, Mr. Chairman. Oh yes I do.
    Mr. Thomas, you said something about 1,000 channels in some 
metro areas, and it just went right over my head, but the 
number kind of baffled me. Help me understand that.
    Mr. Thomas. Well, what I mean by that, Congressman, is the 
Commission has allocated an aggregate 97 megahertz of spectrum 
across 10 bands. They are available in almost all metropolitan 
areas.
    Mr. Schrock. Oh, I see.
    Mr. Thomas. OK? If you just translate those to a number of 
voice channels that is equivalent to, that is roughly, 
conservatively speaking, it is about 1,000.
    Mr. Schrock. OK, I see. You said something else, through-
the-wall detection, and that is of interest to me because I 
represent the Port of Hampton Roads and, really, port security 
is my No. 1 issue right now, because I worry about those 
container ships with 3,000 containers coming in there and I 
think what is on there, what little device is in the corner of 
one of those things that when it gets to a certain grid behind 
the carrier person, it blows up, takes out our Navy and takes 
out our port, and I worry about that all the time. Every time I 
cross that bridge I see it.
    Help me understand that technology.
    Mr. Thomas. Well, there is a technology called ultra 
wideband technology.
    Mr. Schrock. What is it?
    Mr. Thomas. Ultra wideband technology. Sometimes it is 
referred to as UWB. It is very, very broadband, of the order of 
4 or 5 gigahertz wide, but very, very low power, almost at the 
noise level. It has the capability of penetrating walls, and 
there are technologies available or devices available today.
    Mr. Schrock. All kinds of walls; steel, concrete?
    Mr. Thomas. Well, I mean, there are certain walls that 
render it less effective than others, but the answer to your 
question generally is yes. It is used by special ops in the 
military and S.W.A.T. teams, and basically what you can do is 
you put a device up against the wall and you get a radar 
picture of the movement inside of the wall, so you can keep 
track of individuals; it is used for hostage resolution issues, 
that kind of thing.
    Mr. Schrock. OK, now I know what it is. Special operations 
forces have shown me that in Virginia.
    Mr. Thomas. And it is used by S.W.A.T. teams as well in the 
local areas as well.
    Dr. Morgan. Congressman, if I may, I also would recommend 
to you two other sets of experience with respect to technology 
for security of ports. The first, Project Seahawk out of 
Charleston, Charleston is a very large port, as you know, as 
well, is being run out of our southeast center and is applying 
technologies to the security of the Charleston port, as well as 
providing interoperability solutions in the Charleston area 
with law enforcement and public safety.
    The other, I think, most extraordinary effort in terms of 
security of ports in this country is being run by the Port 
Authority of New York and New Jersey. There is a man up there 
by the name of John Pachowski who is doing amazing work in 
protecting the ports associated with New York and has put in 
the best technology that I have seen, and I think that we would 
be happy to put the folks in Newport News-Hampton Roads in 
touch with him and the other people who are supporting his 
efforts.
    Mr. Schrock. Put me in touch with him. That would be great.
    Dr. Morgan. Yes.
    Mr. Schrock. That would be great. Thank you very much. That 
used to be a Navy base; now it is a commercial port in 
Charleston, isn't it?
    Dr. Morgan. Yes.
    Mr. Shays. I thank the gentleman.
    It is my intention originally to be out at 1. I think we 
can go to probably 10 after, and then we will need to go for 
the 1:30 committee meeting we are having here.
    It is also my intention to ask some questions. I think Mr. 
Janklow may come back, and I also want the professional staff 
to ask a few.
    As I think of this hearing, first, the Government Reform 
Committee looks at programs. We look at programs for waste, 
abuse, and fraud. We try to make Government work better; we 
don't appropriate, we don't legislate except in some areas, and 
we try to get those committees of cognizance to legislate, and 
we do a darned successful job, and we do a pretty successful 
job getting, I think, the executive branch to sometimes revisit 
its rules and regulations and performance. So in this hearing 
we are talking about the ability to communicate within 
communities local, regional, State, and the ability to 
communicate among communities local, regional, and State as 
well, and we want to know how these laws are doing, how the 
regulations are doing, and how the administration is doing.
    When I look at this issue and I see what SAFECOM is having 
to do with those organizations, some of those organizations 
represent some big, complex groups such as, for instance, the 
Governors organization, for one. As one of my staff members 
described it, it is like herding cats with a squirt gun. So 
that almost seems hopeless, so I will reject his description.
    But what I want to know, first, with the megahertz issue, 
the TV stations are basically supposed to get out of the 700 
megahertz by 2006, is that correct? That is the end, right? I 
mean, it would be nice if they did it sooner.
    Mr. Thomas. Unfortunately, Congressman, that is not the 
end. That is the objective, but there is another hook in the 
law, as I understand it; and I am not a lawyer.
    Mr. Shays. Every time someone says they are not a lawyer, 
they are giving themselves a compliment.
    Mr. Thomas. I am not going to touch that one with a 10 foot 
pole.
    But also what is required is that within a market that 85 
percent of the receivers be equipped to receive digital TV.
    Mr. Shays. So the reality is, let us cut to the short, 2006 
is almost meaningless.
    Mr. Thomas. It is highly unlikely.
    Mr. Shays. OK. So that requires a legal change, a law to 
change that. That is not a regulation, that is a law, correct?
    Mr. Thomas. That is correct. But there is a consequence, 
and you should be aware of it, and that is the following: the 
way the process is set up is that basically a broadcaster 
presently has an analog channel. He is going to be moved 
somewhere in the spectrum to get a digital channel. When the 
channel is up and running, and when the market, and that market 
area is 85 percent or better digital, he loses the analog 
channel. The problem is if you speed it up, what occurs is that 
broadcaster could have no market. He could have a digital 
transmitter operating with no receivers in the market, and then 
there is a consequential question.
    Mr. Shays. Just tell me the bottom line, all right? What is 
the bottom line?
    Mr. Thomas. The bottom line is, very simply, broadcasters 
have to be able to earn their living. If they have no market, 
they have no advertising. And it is just a caution, that is all 
I am giving you here.
    Mr. Shays. So the solution is what?
    Mr. Thomas. Well, the solution is not an easy one, but one 
of the things we have done at the Commission, for instance, is 
when we did our digital planning we kept Channel 63, 64, 68, 
and 69 mostly vacant for interoperability. That is pretty much 
available in many spots in the United States today. The second 
thing is we did make available, as I said, the 50 megahertz at 
4.9. The problem is, in the interoperability space, is that the 
entrenched receivers don't have that capability, so in order to 
get to interoperability there at least has to be some money 
provided someplace to upgrade the equipment. And they could 
also use part of the 700 band as well as other places, 150, 450 
and the like.
    Mr. Shays. The FCC spectrum task force report, this was 
issued, I guess, in November 2002. One recommended objective 
was to define and set standards of interference. Why is it so 
hard to come to an agreement on definition of interference? And 
when does the FCC hope to quantify acceptable levels of 
interference in the safety band area?
    Mr. Thomas. You are talking about at 800 megahertz, 
Congressman?
    Mr. Shays. Yes.
    Mr. Thomas. All I can tell you is that is about the highest 
priority we have right now at the Commission. What makes it 
difficult is that interference is not a simple concept, it has 
several parameters that you have to juggle. One thing is if the 
public safety transmitter were at higher power, the effect of 
interference from other systems would be mitigated. So the 
first question is to what level do you protect public safety. 
The further you get away from the transmitter, the more 
susceptible it is to interference. So what diameter around the 
transmitter do you protect, that is the first issue.
    The second issue is when you provide protection for 
interference, you basically move costs. If you make that 
diameter small, the public safety community incurs costs. If 
you make that diameter large, the adjacent community, those who 
are adjacent to it, incur cost. And the question is what is the 
appropriate public interest decision, and we are in the process 
of analyzing this right now.
    Mr. Shays. OK, how long, how long, how long, how long? How 
long is it going to take?
    Mr. Thomas. Let us put it this way. I can't commit the 
Commission because, obviously, that is a matter of vote, but I 
think it is imminent. And when I say that, several months.
    Mr. Shays. Well, based on the FCC, several months would be 
imminent, with all due respect.
    You know, I have questions, but I want Mr. Janklow to ask 
his, so I am going to give him his 8 minutes.
    Mr. Janklow. I will try and be brief, Mr. Chairman. Thank 
you.
    Mr. Shays. You ask the questions you need to ask.
    Mr. Janklow. I apologize for having left, but I had my 
weekly press conference I had to do back home with the folks on 
the telephone.
    But you, Mr. Muleta, and you, Mr. Thomas, on behalf of the 
people of my State I would like to thank you. The FCC has moved 
mountains to assist us to getting transferred 150 frequencies 
to put this State-wide trunk system together that we put 
together, and you and your team of people have really done a 
phenomenal job. As a matter of fact, in order to get 150 
frequencies, we went out in the public spectrum and bought 
them, and have had to have them transferred, bought them in 
other States, neighboring States, and used a little bit of 
subterfuge with some of the auctions working through people in 
Texas, because we weren't a qualified bidder in time, so we had 
to find a qualified bidder to get ourselves frequencies.
    We need to fix by legislation these problems that you are 
being asked about, don't you agree? Don't you gentlemen agree? 
You can just say yes or no.
    Mr. Muleta. Well, I think in general any issues, you know, 
where we have to sort of balance interest, having the 
legislators participate brings a greater focus on it.
    Mr. Janklow. Let me give you an example briefly. I can 
remember during the invasion of Grenada. Afterwards, there was 
a major in the 101st Airborne Division that received the bronze 
star. What he earned the bronze star for was he was trying to 
call in an air strike on a building, and he, in the Army, 
couldn't reach the Air Force airplanes. So he went to a pay 
telephone, used his AT&T credit card, called the 82nd Airborne 
Division headquarters in North Carolina, they patched him into 
the Pentagon, which patched him into a communications system, 
which patched him into the Air Force airplanes.
    Mr. Shays. I am going to interrupt the gentleman. We know 
the system is bad. We just need to get some answers right now.
    Mr. Janklow. But the military fixed it.
    Now, the chairman asked you how long is it going to take to 
fix it. Would it be fixed faster if legislation was passed to 
set out the standards of getting this done? You are shaking 
your head yes, Dr. Boyd.
    Mr. Thomas. I would say no, and for a very simple reason. 
You have to know how to fix it to pass the legislation to do 
it, Congressman.
    Mr. Janklow. And can you tell us what it is so we can pass 
the legislation?
    Mr. Thomas. Well, I wish I can. And that is the reason this 
is taking that long. This is an extremely complex issue, and it 
is not easy.
    Mr. Janklow. So what you are telling me is, sir, if I 
understand you, we are doing the best we can do, and let us 
just hang in there and keep plugging forward.
    Mr. Thomas. No, I am not saying that, Congressman. What I 
am saying is it is an extremely complex, technical problem.
    Mr. Janklow. Excuse me.
    Dr. Boyd, you were shaking your head yes. Do you think we 
need legislation?
    Dr. Boyd. Obviously, this is an issue that I think Congress 
is going to have to resolve at some point. I don't think we are 
in a position to challenge the technical details. I will tell 
you that the public safety community is very, very anxious to 
be able to occupy that spectrum.
    Mr. Janklow. You have various Federal agencies that you are 
involved with in SAFECOM. Is the Agriculture Department part of 
this? Is the Interior Department part of it?
    Dr. Boyd. Yes, they are.
    Mr. Janklow. So, then, when the Ag Department can't use any 
radios except the 150 band for fires, no matter where they go, 
that is part of the SAFECOM plan? That is acceptable to 
SAFECOM? And you continue to allow them to be funded that way?
    Dr. Boyd. Let me explain what SAFECOM is trying to do with 
this. The answer to that is that because there are 10 bands 
currently existing, and because there are very large 
investments in State and local agencies in these things, we 
know that we can't scrap that investment; it is just too much, 
it is too expensive. The local folks can't afford to undo those 
things. So what we are trying to do in SAFECOM is to find what 
is the best way for us to make those things work together in 
the near and probably intermediate term as we migrate toward 
what we hope is a genuine interoperability solution. And I will 
tell you that the public safety community sees 700 megahertz as 
part of that longer term approach.
    Mr. Janklow. OK, but 700 won't work everyplace.
    Dr. Boyd. Correct.
    Mr. Janklow. There are places, remote areas of America, 
most rural States can't put up enough towers to accommodate 
700, so they have to get in the lower frequencies.
    Mr. Shays. I am going to have to interrupt.
    Dr. Boyd. We have been very careful to make clear, when we 
talk about this, we are not talking about public safety giving 
up any of its existing spectrum. There are different 
characteristics in different bands.
    Mr. Janklow. Mr. Chairman, I understand. We will quit.
    Mr. Shays. Thank you very much.
    Let me just say that it is a little frustrating for all of 
us at the moment, because I think we could go on a good bit 
longer. This is a hearing about spectrums and standards, and it 
seems to me standards should be driving the issues of spectrum, 
and the problem, I think, is we have not really come to grips 
with the whole issue of standards; what do people need, where 
do they need it, why do they need it. And so we are kind of, in 
a way, wrestling with how we make some very tough decisions 
that impact people commercially and so on, and there are 
obviously significant tradeoffs. But, in the end, we need, 
ultimately, the Department of Homeland Security to set general 
standards on a whole host of issues, not just dealing with 
communication, and we need that done more quickly than I think 
it is happening, and I think folks there know it.
    I have a standard that says don't ever get the staff mad at 
you. Maybe that is a rule. But we have a few minutes more, and 
I would like the professional staff to ask one or two 
questions.
    We will drop dead at 15 after, and I am going to herd folks 
like cats out of this place, because I have to clear it out in 
order to make sure we get ready for the committee.
    Grace, you have the floor.
    Ms. Washbourne. My name is Grace Washbourne. I am a 
professional staff member at the full committee; I work for 
Chairman Tom Davis.
    Dr. Boyd, I just wanted to ask you one question. I noticed 
on October 20th SAFECOM or DHS sent out a pre-solicitation 
notice asking for input from qualified vendors in the academic 
research community regarding technology concepts and existing 
under development products or services. Can you tell me a 
little bit about what you hope to get from that notice and some 
of your deadlines and the planning, what you are going to do 
and when you might have a list of equipment that you approve 
for use across this country?
    Dr. Boyd. One of the first things that we want to be able 
to do is to find out what technologies actually exist; what is 
it that the developers or vendors claim these technologies can 
do. And there is no central place you can go to. In fact, as 
the public safety community will tell you, one of their 
problems is finding out what is there and what can it do. So as 
a first part of our effort, we are trying to find out what is 
it that everybody out there thinks really can address this 
problem. We get a number of offerings that, once we look at 
them, we find really don't fit in this arena because they don't 
fully understand this arena. So part of the RFI is to try to 
get that information; what do people think is out there, what 
does it actually do, and what do we need to look more closely 
at as possible either present or near term or more advanced 
solutions or ways to use technology to help with 
interoperability, to help us solve the problem.
    So that is a fundamental part of what we do, because we 
think there are two things we need to develop before we can 
make the standards process move properly. One is to understand 
what there is and what can be done; and the second none is to 
make sure, and this is where the Statement of Requirements is 
important, that we understand exactly what interoperability is 
that the different elements of the community need for what 
purpose, how much, when, what circumstances, so that we can 
then define as quickly as we are able serious standards that 
will begin to address those issues.
    Ms. Washbourne. Do you have a timetable set for this? I 
guess I am sure there is a lot of people out there who want to 
buy this equipment right now with the SAFECOM approval on it. 
Do you have in your milestones a deadline?
    Dr. Boyd. We have a series of milestones. The first set is 
the RFI came out about 2 weeks ago, and the closing date, as I 
recall, is about November 13th or 14th. The Statement of 
Requirements, we are going to process the draft today. Our goal 
is to have that completed not later than the end of this 
calendar year and everybody on board for that. That then 
becomes part of the standards process and will become the next 
phase of what our technology development material is, and we 
hope at that point to be able to go back out publicly. And in 
fairness I need to tell you this is a goal, this is what we 
really hope to get; I won't promise we may not have to slip it, 
because we are working with 44,000 different activities here. 
Our goal is to try to have the next element of that, looking 
for specific things that we can actually do some testing and 
evaluation on around the end of January.
    Ms. Washbourne. Thank you, sir.
    Mr. Shays. Let me conclude my part by saying it is very 
clear to me the following. The standards need to be set whether 
or not we can meet the standards, whether or not it is 
economically feasible, because we need to know what the target 
is, and then we need to decide whether we can meet it and what 
are all the restraints in dealing with that. So I just want to 
emphasize again what are the standards of communication within 
a community, what are the standards that need to be set among 
communities, among States, and then say, well, we can meet it 
if we do the following, and then we say, well, it is just not 
feasible. We then have to know, well, we are not going to be 
able to meet the standard in this part of the country or in 
this area, we simply can't do it for the following reasons. But 
then we can have kind of an honest dialog. And I think that is 
kind of how I want to summarize my sense of this hearing.
    I am happy to have any of you, in the next minute, make any 
statement that needs to be on the record. Is there anything, 
Ms. Evans, that needs to be put on the record before we 
adjourn?
    OK, noting that there is none that has to be, I am sorry we 
kind of rushed you at the end.
    And to our audience, thank you for your cooperation, but we 
are going to have Members who are going to start to come in the 
next 5 minutes for a committee meeting, so this hearing will be 
adjourned, and I ask you graciously to leave.
    [Whereupon, at 1:15 p.m., the subcommittees were adjourned, 
to reconvene at the call of their respective Chairs.]
    [The prepared statements of Hon. Carolyn B. Maloney, Hon. 
Jane Harman, and additional information submitted for the 
hearing record follows:]

[GRAPHIC] [TIFF OMITTED] T3427.167

[GRAPHIC] [TIFF OMITTED] T3427.168

[GRAPHIC] [TIFF OMITTED] T3427.169

[GRAPHIC] [TIFF OMITTED] T3427.220

[GRAPHIC] [TIFF OMITTED] T3427.221

[GRAPHIC] [TIFF OMITTED] T3427.222

[GRAPHIC] [TIFF OMITTED] T3427.223

[GRAPHIC] [TIFF OMITTED] T3427.224

[GRAPHIC] [TIFF OMITTED] T3427.225

[GRAPHIC] [TIFF OMITTED] T3427.226

[GRAPHIC] [TIFF OMITTED] T3427.227

[GRAPHIC] [TIFF OMITTED] T3427.228

[GRAPHIC] [TIFF OMITTED] T3427.229

[GRAPHIC] [TIFF OMITTED] T3427.237

[GRAPHIC] [TIFF OMITTED] T3427.238

[GRAPHIC] [TIFF OMITTED] T3427.239

[GRAPHIC] [TIFF OMITTED] T3427.240

[GRAPHIC] [TIFF OMITTED] T3427.241

[GRAPHIC] [TIFF OMITTED] T3427.242

[GRAPHIC] [TIFF OMITTED] T3427.243

[GRAPHIC] [TIFF OMITTED] T3427.244

[GRAPHIC] [TIFF OMITTED] T3427.245

[GRAPHIC] [TIFF OMITTED] T3427.246

[GRAPHIC] [TIFF OMITTED] T3427.247

[GRAPHIC] [TIFF OMITTED] T3427.248

[GRAPHIC] [TIFF OMITTED] T3427.249

[GRAPHIC] [TIFF OMITTED] T3427.250

[GRAPHIC] [TIFF OMITTED] T3427.251

[GRAPHIC] [TIFF OMITTED] T3427.252

[GRAPHIC] [TIFF OMITTED] T3427.253

[GRAPHIC] [TIFF OMITTED] T3427.254

[GRAPHIC] [TIFF OMITTED] T3427.255

[GRAPHIC] [TIFF OMITTED] T3427.256

[GRAPHIC] [TIFF OMITTED] T3427.257

[GRAPHIC] [TIFF OMITTED] T3427.258

[GRAPHIC] [TIFF OMITTED] T3427.259

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
